<html>
<title> - OVERSIGHT OF THE DHS HEADQUARTERS PROJECT AT ST. ELIZABETHS: IMPACT ON THE TAXPAYER</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






OVERSIGHT OF THE DHS HEADQUARTERS PROJECT AT ST. ELIZABETHS: IMPACT ON 
                              THE TAXPAYER

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT
                       AND MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 19, 2014

                               __________

                           Serial No. 113-87

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-365 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Donald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Curtis Clawson, Florida
                   Brendan P. Shields, Staff Director
                   Joan O'Hara, Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                 Jeff Duncan, South Carolina, Chairman
Paul C. Broun, Georgia               Ron Barber, Arizona
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Richard Hudson, North Carolina       Beto O'Rourke, Texas
Steve Daines, Montana, Vice Chair    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
               Ryan Consaul, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
           Tamla Scott, Minority Subcommittee Staff Director



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina, and Chairman, Subcommittee on 
  Oversight and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     6
  Prepared Statement.............................................    11
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    12

                               Witnesses

Mr. David C. Maurer, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Chris Cummiskey, Acting Under Secretary, Management 
  Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. Norman Dong, Commissioner, Public Buildings Service, U.S. 
  General Services Administration:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24

                             For the Record

The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency:
  Statement of Paul A. Schneider, Former Deputy Secretary, 
    Department of Homeland Security..............................     6

                                Appendix

Questions From Chairman Jeff Duncan for David C. Maurer..........    39
Question From Chairman Jeff Duncan for Chris Cummiskey...........    41
Questions From Ranking Member Bennie G. Thompson for Chris 
  Cummiskey......................................................    41
Questions From Chairman Jeff Duncan for Norman Dong..............    42
Question From Ranking Member Bennie G. Thompson for Norman Dong..    42

 
OVERSIGHT OF THE DHS HEADQUARTERS PROJECT AT ST. ELIZABETHS: IMPACT ON 
                              THE TAXPAYER

                              ----------                              


                       Friday, September 19, 2014

             U.S. House of Representatives,
                     Subcommittee on Oversight and 
                             Management Efficiency,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 311, Cannon House Office Building, Hon. Jeff Duncan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Duncan, Barber, and Payne.
    Also present: Representative Norton.
    Mr. Duncan. The Committee on Homeland Security, 
Subcommittee on Oversight and Management Efficiency will come 
to order. The purpose of this hearing is to receive testimony 
regarding the Department of Homeland Security's consolidation 
project at St. Elizabeths. I will now recognize myself for an 
opening statement.
    Since 2006 the Department of Homeland Security, DHS, and 
General Services Administration, GSA, have spent over a billion 
taxpayer dollars to build a consolidated DHS Headquarters on 
the St. Elizabeths campus in Southeast Washington, DC. St. 
Elizabeths is a National historic landmark that was originally 
founded in 1852 as the Government Hospital for the Insane.
    The purpose of the new headquarters was to consolidate DHS 
leadership and operations to improve efficiency. Unfortunately, 
as shown by a Government Accountability Office, GAO, report 
that was released today, the project has become a monument to 
mismanagement.
    DHS and GSA spent 3 years planning for the project before 1 
ounce of concrete was poured. Finally, in 2009, DHS and GSA 
commenced with construction. DHS and GSA received over a 
billion dollars with the help of the stimulus act. In classic 
big-Government style, the bill, intended to help lift America 
out of the great recession, provided funding for cushy new 
offices for Washington bureaucrats.
    When I say cushy, I am not exaggerating. As our 
subcommittee Majority staff report from earlier this year 
showed, the Coast Guard's new headquarters features courtyards 
built with Brazilian Ipe wood, one of the hardest woods in the 
world, eco-friendly green roofing, and rain-water flush 
toilets. These examples illustrate the lack of effective 
management and oversight of this multibillion-dollar project.
    GAO's report lays out in great detail how the St. 
Elizabeths project has been devoid of leadership and proper 
management for years. In recent years DHS failed to identify 
the $4.5 billion project as a major acquisition program within 
the Department. Such a designation would have brought with it 
more program oversight. DHS simply can't afford to neglect its 
oversight responsibilities.
    A recent and glaring example of this is a recent inspector 
general report that showed CBP wasting millions of dollars on 
lavish housing for employees in Ajo, Arizona. If DHS instilled 
greater accountability and stricter oversight among its 
components, millions of dollars in taxpayer dollars could have 
been saved or put to better use.
    Does the fact that these are buildings at St. Elizabeths 
make a difference and not a Coast Guard ship, a CBP helicopter, 
or a TSA body scanner? As a result DHS did not require St. 
Elizabeths to receive the same oversight as other acquisition 
programs with comparable cost. While doing so may not have 
solved the problems for the project, they could have given 
Congress and DHS senior leadership greater visibility on where 
the program stood.
    This mismanagement is exactly why the Senate needs to pass 
H.R. 4228, the DHS Acquisition Accountability and Efficiency 
Act, which Mr. Barber, the Ranking Member, and I wrote to 
increase discipline in DHS acquisitions and ultimately save 
taxpayer dollars.
    GAO also found that DHS and GSA's cost and schedule 
estimates aren't worth the paper they are printed on. GAO's 
report shows that the estimates failed to fully comport with 
any leading capital decision-making practices. Not a one. 
Consequently, GAO found DHS and GSA's cost and schedule 
estimates for St. Elizabeths were unreliable and overly 
optimistic.
    It is not a surprise to discover that there has been a wild 
swing in the estimates since the program has moved forward. In 
2007 GSA estimated that the project would be fully complete by 
2016 at a cost of $3.2 billion and projected a savings of $743 
million by moving employees from leased to owned space. The 
latest estimates put completion of the project 10 years later, 
at 2026, and at a cost of $4.5 billion, and reduced savings to 
$532 million. The truth is DHS and GSA don't have any idea how 
much St. Elizabeths will cost or when it can be finished.
    This is an astounding finding for a program prepared to 
spend $4.5 billion in taxpayer funds. This lack of basic 
management, knowing when a project will be done and how much it 
will cost, is a leadership malpractice. Would any of you 
sitting at the witness table be willing to commit to building a 
house with your own money without knowing what it would cost or 
when it will be done? The answer is no. Yet you expect the 
American taxpayer to agree to such an ultimatum with St. 
Elizabeths.
    Up until recently DHS and GSA have wanted to continue the 
course. If you haven't noticed, this Nation is drowning in 
debt. It has more than doubled from the $8 trillion to over $17 
trillion since planning for St. Elizabeths began. Who knows how 
far in the hole we will be when it is scheduled for completion 
in 2026. We have serious homeland security priorities that need 
our attention, such as threats from ISIS and Syrian foreign 
fighters, foreign fighter flow, dealing with the illegal alien 
crisis on the Southwest Border, and I could go on and on.
    We have had hearings this week in this committee that 
pointed to where our emphasis needs to be at this time. I 
commend GAO for its report in shining a light on the 
mismanagement of St. Elizabeths. Congress should heed GAO's 
recommendation that no new funding be appropriated until DHS 
and GSA get their act together. I hope to hear DHS and GSA 
explain what they plan to do to make this project achievable 
and affordable, or if that is even possible at this point.
    [The statement of Chairman Duncan follows:]
                   Statement of Chairman Jeff Duncan
                           September 19, 2014
    Since 2006, the Department of Homeland Security (DHS) and General 
Services Administration (GSA) have spent over a billion taxpayer 
dollars to build a consolidated DHS Headquarters on the St. Elizabeths 
campus in Southeast Washington, DC. St. Elizabeths is a National 
historic landmark that was originally founded in 1852 as the Government 
Hospital for the Insane. The purpose of the new headquarters was to 
consolidate DHS leadership and operations to improve efficiency. 
Unfortunately, as shown by a Government Accountability Office (GAO) 
report that was released today, the project has become a monument to 
mismanagement.
    DHS and GSA spent 3 years planning for the project before 1 ounce 
of concrete was poured. Finally, in 2009, DHS and GSA commenced with 
construction. DHS and GSA received over $1 billion with the help of the 
``Stimulus Act.'' In classic big-Government style, the bill intended to 
help lift America out of the ``Great Recession'' provided funding for 
cushy new offices for Washington bureaucrats. And when I say cushy, I'm 
not exaggerating. As our subcommittee Majority staff report from 
earlier this year showed, the Coast Guard's new headquarters features 
courtyards built with Brazilian Ipe wood--one of the hardest woods in 
the world--eco-friendly green roofing and rainwater toilets. These 
examples illustrate the lack of effective management and oversight of 
this multibillion-dollar project.
    GAO's report lays out in great detail how the St. Elizabeths 
project has been devoid of leadership and proper management for years. 
In recent years, DHS failed to identify the $4.5 billion project as a 
major acquisition program within the Department. Such a designation 
would have brought with it more program oversight. DHS simply can't 
afford to neglect its oversight responsibilities. A recent and glaring 
example of this is a recent inspector general report that showed CBP 
wasting millions of dollars on lavish housing for employees in Ajo, 
Arizona. Had DHS instilled greater accountability and stricter 
oversight among its components, millions of taxpayer dollars could have 
been saved or put to better use.
    Does the fact that these are buildings at St. Elizabeths make a 
difference and not a Coast Guard ship, CBP helicopter, or TSA body 
scanner? As a result, DHS did not require St. Elizabeths to receive the 
same oversight as other acquisition programs with comparable costs. 
While doing so may not have solved the problems for the project, it 
could have given Congress and DHS senior leadership greater visibility 
on where the program stood. This mismanagement is exactly why the 
Senate needs to pass H.R. 4228--the DHS Acquisition Accountability and 
Efficiency Act, which Mr. Barber and I wrote to increase discipline in 
DHS acquisitions and save taxpayer dollars.
    GAO also found that DHS and GSA's cost and schedule estimates 
aren't worth the paper they're printed on. GAO's report shows that the 
estimates failed to fully comport with any leading capital decision-
making practices. Not a one. Consequently, GAO found DHS and GSA's cost 
and schedule estimates for St. Elizabeths were unreliable and overly 
optimistic. It's not a surprise to discover that there's been a wild 
swing in the estimates since the program has moved forward. In 2007, 
GSA estimated that the project would be fully complete by 2016 at a 
cost of $3.2 billion and projected a savings of $743 million by moving 
employees from leased to owned space. The latest estimates put 
completion of the project at 2026 at a cost of $4.5 billion and reduced 
savings to $532 million. The truth is that DHS and GSA don't have any 
idea how much St. Elizabeths will cost or when it could be finished.
    This is an astounding finding for a program prepared to spend $4.5 
billion in taxpayer funds. This lack of basic management--knowing when 
a project will be done and how much it will cost--is leadership 
malpractice. Would any of you sitting at the witness table be willing 
to commit to building a house with your own money without knowing what 
it will cost or when it will be done? The answer is: No. Yet, you 
expect the American taxpayer to agree to such an ultimatum at St. 
Elizabeths.
    Up until recently, DHS and GSA have wanted to continue the course. 
If you haven't noticed, this Nation is drowning in debt; it's more than 
doubled from $8 trillion to over $17 trillion since planning for St. 
Elizabeths began. Who knows how far in the hole we will be when it's 
scheduled for completion in 2026? And we have serious homeland security 
priorities that need our attention, such as threats from ISIS and 
Syrian foreign fighters, the illegal alien crisis on the Southwest 
Border, and I could go on. I commend GAO for its report and shining a 
light on the mismanagement of St. Elizabeths. Congress should heed 
GAO's recommendation that no new funding be appropriated until DHS and 
GSA get their act together. I hope to hear DHS and GSA explain what 
they plan to do to make this project achievable and affordable or if 
that's even possible at this point.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Duncan. I will now recognize the Ranking Member of the 
subcommittee, the gentleman from Arizona, Mr. Barber, for any 
statement that he may have.
    Mr. Barber. Thank you, Mr. Chairman, and thank you to the 
witnesses for being with us this morning. Before I give my 
remarks, Mr. Chairman, I have some additional business to 
conduct with your approval. I ask unanimous consent for the 
gentlelady from the District of Columbia to sit in for the 
purpose of receiving testimony and questioning.
    Mr. Duncan. Without objection, so ordered.
    Mr. Barber. Additionally, Mr. Chairman, I ask unanimous 
consent for the report, ``Security and Savings: The Importance 
of Consolidating the Department of Homeland Security's 
Headquarters at St. Elizabeths,'' by Senator Tom Carper, to be 
inserted into the record.
    Mr. Duncan. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The information has been retained in committee files and is 
available at http://hsgac.senate.gov/download/carper-report.
---------------------------------------------------------------------------
    Mr. Barber. Finally, Mr. Chairman, I also ask unanimous 
consent for the testimony from former Under Secretary for 
Management Paul A. Schneider to be inserted into the record.
    Mr. Duncan. Without objection.
    [The information follows:]
Statement of Paul A. Schneider, Former Deputy Secretary, Department of 
                           Homeland Security
                           September 19, 2014
    Thank you Chairman Duncan, Ranking Member Barber, and Members of 
the subcommittee. It's a pleasure to submit this testimony on this very 
important subject.
    It has been approximately 5 years since I have left office as the 
deputy secretary of the U.S. Department of Homeland Security (DHS) 
having first served as the under secretary for management. Since that 
time, I have been consulting for the U.S. Government (except for DHS); 
am a principal in The Chertoff Group which is a company that provides 
consulting, security, and merger and acquisition (M&A) advisory 
services for clients in the security, defense, intelligence, and 
Government services industries around the world. I also currently serve 
on several boards and advisory groups, including chairman of the Board 
of Directors of the Applied Science Foundation for Homeland Security, 
chairman of the AFCEA Homeland Security Committee, the Naval Studies 
Board of the National Academy of Sciences and Engineering; and a 
STRATCOM advisory board for the replacement of the OHIO ballistic 
missile submarine.
    Since leaving my position at DHS, I have had the opportunity to 
observe the changing and challenging environment and assess its impact 
on DHS operations and those of the homeland security enterprise. Based 
on my observations, former position and years of experience, I am here 
today to provide my views about the importance of consolidating DHS 
facilities at St. Elizabeths (St. Es).
                            the environment
    The homeland security strategic environment is constantly evolving, 
and while we have made significant progress, threats from terrorism 
continue to persist. Today's threats are not limited to any one 
individual or group, are not defined or contained by international 
borders, and are not limited to any single ideology. Terrorist tactics 
can be as simple as a home-made bomb and as sophisticated as a 
biological threat or a coordinated cyber attack. In addition, broader 
strategic trends such as the dramatic spread of internet and mobile 
technologies around the world and the growing relevance of non-state 
actors on the world stage suggest new opportunities and challenges that 
must be accounted for in our current and longer-term homeland security 
strategic planning.
    Another defining characteristic of our strategic environment is the 
tightening fiscal environment. It is increasingly important to define 
clear priorities, develop and assess viable alternatives, and make 
well-informed decisions involving difficult trade-offs. DHS has made 
substantial progress in this regard, particularly with respect to 
establishing a strategic foundation for National homeland security 
efforts, refining our strategic and policy analysis capabilities and 
approaches, and improving strategic alignment through focused 
management tools and processes. Together, these improvements have 
positioned DHS to effectively address today's security environment 
while ensuring that we are sufficiently flexible, agile, and capable in 
the face of emerging threats and risks.
              quadrennial homeland security review (qhsr)
    Implementing the 9/11 Commission Recommendations Act of 2007 
directed the Department to begin conducting quadrennial reviews in 2009 
and every 4 years thereafter. The QHSR was a critical first step in the 
process of examining and addressing fundamental strategic issues that 
concern homeland security, and establishing an enduring strategic 
foundation.
    As the first review of its kind for DHS, the 2010 QHSR clarified 
the conceptual underpinnings of homeland security, described the 
security environment and the Nation's homeland security interests, 
identified the critical homeland security enterprise missions, and 
outlined the principal goals and essential objectives necessary for 
success in those missions.
    The 2014 QHSR provides the updated strategy and planning foundation 
that positions DHS to effectively address the emerging strategic 
challenges the country faces.
    First, the QHSR clarifies the conceptual underpinnings of homeland 
security. In defining homeland security as the intersection of evolving 
threats and hazards with traditional Governmental and civic 
responsibilities for civil defense, emergency response, law 
enforcement, customs, border control, and immigration. The QHSR 
emphasizes the importance of eliminating traditional stovepipes to 
achieving success in homeland security. The QHSR also establishes the 
idea of the homeland security enterprise which refers to the collective 
efforts and shared responsibilities of Federal, State, local, Tribal, 
territorial, non-Governmental, and private-sector partners--as well as 
individuals, families, and communities--to maintain critical homeland 
security capabilities. Each of these conceptual elements has infused 
all aspects strategy and planning.
    Second, the QHSR takes a comprehensive approach to threats by 
expanding the focus of homeland security to specifically address high-
consequence weapons of mass destruction, global violent extremism, mass 
cyber-attacks, intrusions, and disruptions, pandemics and natural 
disasters, and illegal trafficking and related transnational crime.
    Third, the QHSR adopted a mission structure designed to endure 
across inevitable changes in the security environment. The missions are 
to prevent terrorism and enhance security, secure and manage our 
borders, enforce our immigration laws, safeguard and secure cyber 
space, enhance resilience to disasters, and provide critical support to 
economic and National security. Because tomorrow's security environment 
will not necessarily look like today's security environment, the 
missions provide a durable framework to effectively address whatever 
risks and threats may emerge over time.
                          management challenge
    The Department faces significant management and programmatic 
challenges. When it was created it was the largest Government 
reorganization in more than 50 years, involving over 180,000 employees 
and a budget of more than $40 billion. This effort required the 
integration of 22 different agencies with different missions, value, 
cultures, and protocols into a single, unified Department focused on 
the critical and pressing mission of securing the Nation. Now there are 
approximately 240,000 people.
    Since its formation each Secretary has worked to integrate the 
various component elements and maximize efficiency, while still keeping 
the homeland safe and secure. Successful transformations of this sort--
even ones less formidable--often take a long time to achieve. DHS must 
organize around missions, rather than legacy bureaucracies, and it must 
find ways to resolve old disconnects in its systems. In short, the 
Department must operate as ``One DHS,'' a unified Department.
    Secretary Johnson has developed a strong Strategic Plan to face 
these challenges and to succeed. His April 2014 memo, ``Strengthening 
the Department Unity of Effort'' outlines major management initiatives 
that are key to the management component that is essential to 
effectively execute the operational initiatives in the QHSR. It 
continues along the path to improve operations as ``One DHS''.
    The consolidation of DHS activities at St. Es is an essential 
element of this transformation and key to the success of several DHS 
management initiatives.
                       consolidated headquarters
    DHS's mission demands an integrated approach, yet the Department's 
legacy facilities are dispersed in more than 50 locations and 7.1 
million Gross Square Feet (GSQF) of office space throughout the 
National Capital Region (NCR). This data may be slightly inaccurate 
because it is based on my recollection of the situation prior to the 
United States Coast Guard move. This dispersal adversely impacts 
critical communication, coordination, and cooperation across the 
Department. Consolidating executive leadership in a secure setting with 
sufficient office space for policy, management, operational 
coordination, and command-and-control capabilities at the St. 
Elizabeths (St. Es) West Campus is vital to the long-term success of 
the Department. The Department also needs to reduce the total number of 
locations that house DHS components in the NCR to as few as possible in 
order to lower overall costs.
    Without Federal construction at St. Es, DHS will continue to be 
housed in over 50 NCR locations. The St. Es development will result in 
a $1 billion Net Present Value (NPV) savings over a 30-year period by 
consolidating private- and public-sector lease agreements. I believe 
that these estimates that I worked with at the time should be 
reasonably accurate today.
    There are several practical aspects of this matter that I have 
personally lived through and are as relevant today as they were then.
    First, the physical condition of the current DHS Headquarters at 
Nebraska Ave (called the NAC) is deplorable. In my previous appearances 
before the Congress I have referred to it as ``Dump''. It is. The 
decrepit nature of the physical plant was terrible and in need of 
constant major maintenance. Maintenance frequently required repeated 
tearing up the roads and major disruption at the NAC. It was a death 
spiral, constantly spending money to preserve the old and outdated. 
Also, several of the operational components were housed in facilities 
outside the NAC that were inadequate and the habitability was poor.
    Second, the space and conditions for a professional workforce was 
terrible. People crammed into spaces one half or less than the minimum 
standard by any comparison is unsatisfactory at best. This had an 
additional flaw in that there was very little open space, hence no 
flexibility. So, when special task force or teams were required to be 
formed, the buildings and spaces were not modular and could not be 
rapidly reconfigured to accommodate the specific mission teams that 
were required to be established.
    Third, actions were taken by previous Congresses to prevent DHS 
from improving critical operational facilities at the NAC by creating a 
temporary consolidated operations center, were not allowed (in effect 
by disapproving financial reprogramming) because the Department would 
be moving to a consolidated headquarters at St. Es where there would be 
an integrated operations center. While I found this action 
unconscionable, I understood it. In my time at the Department, the 
operations center size was significantly inadequate, the IT technology 
practically obsolete, and the environment was operational limiting to 
equipment operational requirements and hence its ability for reliable 
operations was severely impacted. A major consideration in the design 
of the St. Es campus was the establishment of the integrated operations 
center; specifically to exercise the required leadership and direction 
of the operations. The failure to accomplish this is unacceptable from 
a security standpoint.
    Fourth, the wide-spread dispersal of the operational component's 
key leadership made leadership and command and control very difficult. 
Trying to gather the operational leadership in times where joint 
operations are required to focus on emergent crises is near impossible 
given the current geographic dispersal. In this regard, what is often 
overlooked by those outside the Department is that DHS is a huge 
operational law enforcement organization. Co-location of the leadership 
to exercise direction of operations is an essential aspect of good 
command and control. It would be unthinkable for any law enforcement 
organization of substantially less size to be forced to operate in a 
manner similar to the current DHS layout, yet it is tolerated and 
accepted for DHS which was established to provide enhanced and 
integrated security operations to protect the homeland. This is not a 
mere dollars issue. Failure to enable the consolidation is operational 
limiting.
    Fifth, in the D.C. area, if there is an emergency homeland security 
event, the activity dispersal will essentially preclude assembling the 
leadership because the major traffic disruption that will probably 
result will make movement across the city impossible.
    Sixth, the many leases and rents for DHS organizations outside of 
the District of Columbia. While in office I was frequently asked by 
Members and staff why can't you consolidate disparate DHS activity 
locations across the country. Practically we started to do that where 
it made sense and where timing of expired leases could be synchronized 
to avoid penalties. In all these discussions I expressed my concern 
that while these efforts were important, they were indeed very minor 
compared to the challenges and opportunities faced in the District of 
Columbia.
    Seventh, the consolidation of mission support functions that cannot 
be accommodated at St. Es also has the potential to achieve comparable 
cost avoidances through co-location of similar functions, elimination 
of redundancies, and economize shared services. It was always 
recognized that there were efficiencies that could be achieved in 
consolidating several of these ``back room'' functions, mostly 
administrative that were more site-independent than operationally-
focused and co-location required. Our plan was simple--co-locate the 
operational leadership and then look to consolidate the back room 
functions. That plan made sense in 2009 and it makes sense today.
    This effort will right-size the real estate portfolio resulting in 
DHS having 70 percent of its offices in less costly yet more secure 
Government-owned space.
    Consolidating facilities will increase efficiency, enhance 
communication, and foster a ``One DHS'' culture that will optimize 
Department-wide prevention and response capability. I strongly request 
that the Congress support this effort by authorizing and appropriating 
funding for completing the DHS consolidation at St. Elizabeths West 
Campus and efficient realignment of off-campus locations.
                               conclusion
    Thank you for your leadership and your continued support of the 
Department of Homeland Security and its important programs and your 
efforts in shaping the future and success of DHS. I sincerely 
appreciate this opportunity to submit this testimony for the record in 
support of the consolidation of DHS activities at St. Es.

    Mr. Barber. Well, thank you, Mr. Chairman, and thank you 
for convening this hearing this morning. You will recall that 
you and I went out to St. Elizabeths several months ago to see 
what was going on and what was in progress, and at that time 
none of the buildings were completed. We were still waiting for 
the first one to be opened and occupied. That has now happened 
with the Coast Guard moving from the Navy Yard into St. 
Elizabeths. I have not been out there since, but I hope when we 
return to pay another visit to see what other progress has been 
made.
    As we know, the Department of Homeland Security is composed 
of 22 sometimes called legacy agencies, making it the third-
largest department in the Federal Government. It has, I 
believe, one of the most important missions of any Federal 
agency, and that is to keep Americans safe and to protect the 
homeland. This is an enormous challenge and responsibility from 
securing our borders to counterterrorism and cybersecurity.
    In 2006, former DHS Secretary Michael Chertoff introduced a 
plan to consolidate the Department's senior leadership across 
all 22 component agencies into one headquarters, as opposed to 
operating out of 50 different locations around the Nation's 
Capital Region. In the consolidated headquarters, the 
Department would be in one location and could more quickly 
coordinate and respond to a crisis. As we know, St. Elizabeths 
Hospital in Southeast Washington was chosen as the site for 
this consolidation plan.
    The original master plan for converting St. Elizabeths into 
a DHS Headquarters called for a coordinated construction 
schedule that would be divided into three phases, and it was 
supposed to cost $3.45 billion with the project being completed 
by 2015, next year. Unfortunately, Mr. Chairman, as you pointed 
out, the project is now expected to exceed costs of $4.5 
billion. It is now expected to be completed in 2026. That is a 
$1 billion increase in cost projections and 11 years overdue.
    There are several issues, as we know, behind the costs and 
the delays that St. Elizabeths is experiencing, and I am 
looking forward to an opportunity today to explore further 
those issues and those delays.
    First, the GAO found that in managing this project the 
Department of Homeland Security and the General Services 
Administration did not fully conform with leading capital 
decision-making practices. The GAO also found that DHS and GSA 
have not conducted an assessment of current needs and 
capability gaps, nor have they prioritized alternative designs 
that would help adapt St. Elizabeths' consolidation plan to 
meet the current fiscal environment.
    Another issue that has plagued St. Elizabeths is a funding 
gap that began in the first year after the first phase of 
construction. In fiscal 2006 President Bush requested almost 
$38 million to begin the first phase of construction 
specifically for consolidating the Coast Guard at St. 
Elizabeths and to upgrade St. Elizabeths' West Campus 
infrastructure, and Congress fully funded this request. 
However, in fiscal year 2007, when President Bush requested 
roughly $360 million for St. Elizabeths, Congress only 
appropriated about $6 million, creating a significant funding 
gap. The funding gap has widened over the years and has 
contributed to project delays and to cost inflations.
    As Ranking Member of this subcommittee, I am committed to 
working with my colleagues on both sides of the aisle to ensure 
that the Department spends taxpayer money wisely. We have to be 
good fiscal agents. The Department must have the resources it 
needs to fulfill its mission, but we will not and should not 
write them a blank check. They must accord to best practices 
and have plans in place that enable them to adapt to the 
current fiscal and legislative climate.
    Let me just digress for a moment, Mr. Chairman, to point 
out that this is not just an issue at St. Elizabeths. Recently, 
there was a report that showed in my State, in the district 
next door, another cost overrun in an inexplicable building 
project, building houses for Border Patrol Agents and their 
families in a small community called Ajo. It used to be a 
mining town. It is now essentially a retirement community. The 
home values in Ajo are about $88,000 on the average. What did 
DHS spend with GSA to build those homes? Almost $700,000 per 
home, building homes that were larger than were needed for 
agents whose families were living in Tucson and other cities 
who were not likely to occupy the larger premises.
    Earlier this year we heard another GAO report that pointed 
out a $24 million boondoggle, I might say, which was an effort 
to upgrade the IT system for DHS. That plan was never 
implemented because the implementation or the proposal was not 
appropriate to the need.
    So today's hearing will obviously focus on St. Elizabeths, 
but I think we have to be concerned about a broader problem, 
and that is how does this third-largest Federal agency manage 
the money that the taxpayers give to us and we to them to fund 
the agency's mission? I also look forward to hearing from GSA 
and DHS about why the consolidation plan is important to 
protecting our homeland and whether or not one location is 
financially more practical than the Department's current 
leasing system.
    Let me, Mr. Chairman, close with this remark. I have been 
very impressed, as I think we have on both sides of the aisle 
in this committee, with Secretary Johnson's commitment to 
transparency and accountability. I understand that he will be 
looking at these issues very seriously and I believe he will 
take action. I look forward to his action being one that is 
good for the taxpayer and gets these projects done on time and 
on budget.
    Thank you, Mr. Chairman. I yield back.
    [The statement of Ranking Member Barber follows:]
                 Statement of Ranking Member Ron Barber
                           September 19, 2014
    The Department of Homeland Security is made up of 22 legacy 
agencies, making it the third-largest department in the Federal 
Government. DHS has one of the most important missions of our 
Government--to keep Americans safe. This is an enormous challenge and 
responsibility, from securing our borders, to counterterrorism and 
cybersecurity. In 2006, former DHS Secretary Michael Chertoff 
introduced a plan to consolidate the Department's senior leadership--
across all 22 component agencies--into one headquarters.
    As opposed to operating out of 50 different locations around the 
National Capital Region, in a consolidated headquarters the Department 
would be in one location and could quickly coordinate and respond to a 
crisis.
    As we know, the site selected for this consolidation plan was St. 
Elizabeths Hospital in Southeast Washington. The original master plan 
for St. Elizabeths called for a coordinated construction schedule to be 
divided into three phases and to cost $3.45 billion, with the project 
being completed by 2015.
    Unfortunately, the project is now expected to cost $4.5 billion and 
is not expected to be completed until 2026. There are several issues 
behind the costs and delay at St. Elizabeths that I am hoping we can 
explore further through today's hearing.
    First, the Government Accountability Office found that in managing 
this project the Department of Homeland Security and the General 
Services Administration did not fully conform with leading capital 
decision-making practices. The GAO also found that DHS and GSA have not 
conducted an assessment of current needs and capability gaps, nor have 
they prioritized alternative designs that would help adapt the St. 
Elizabeths consolidation plan to meet the current fiscal environment.
    Another issue that has plagued St. Elizabeths is a funding gap that 
began in just a year after the first phase of construction. In fiscal 
year 2006, President Bush requested almost $38 million to begin the 
first phase of construction, specifically for consolidating the Coast 
Guard at St. Elizabeths and to upgrade St. Elizabeths West Campus 
infrastructure. Congress fully funded this request.
    However, in fiscal year 2007, when President Bush requested roughly 
$360 million for St. Elizabeths, Congress only appropriated around $6 
million. The funding gap has widened over the years and has contributed 
to project delays and to cost inflations.
    As Ranking Member of this subcommittee, I am committed to working 
with my colleagues on both sides of the aisle to ensure that the 
Department spends taxpayer dollars wisely. The Department must have the 
resources they need to fulfill their mission but we will not write them 
a blank check. They must accord to best practices and have plans in 
place that enable them to adapt to the current fiscal and legislative 
climate.
    Today's hearing should provide an opportunity to hear from GAO 
regarding its analysis of the St. Elizabeths project and its 
recommendations to GSA and DHS. I also look forward to hearing from GSA 
and DHS about why the consolidation plan is important to protecting our 
homeland and whether or not one location is financially more practical 
than the Department's current leasing system.

    Mr. Duncan. I thank the gentleman.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 19, 2014
    Since the Department of Homeland Security was created in 2002, its 
core components have been dispersed in more than 50 locations 
throughout the National Capital Region. This separation adversely 
affects the need for cohesive communication, coordination, and 
cooperation across the Department component agencies as the Department 
seeks to fulfill its mission.
    At a time when we face a dynamic threat picture and realize a 
natural disaster could occur in any area of the country, it is 
inconceivable that the Department of Homeland Security does not have a 
consolidated headquarters where the Secretary can meet with the 
component heads instantaneously.
    Secretary Johnson has indicated his vision to unify the Department, 
and Members of this committee have vocally supported him; however, we 
must recognize that having the Department spread throughout the 
National Capital Region has a negative impact on the Secretary's 
vision. Former Secretary Chertoff presented the plan to have a single, 
unified headquarters that houses the Secretary, senior Department 
leadership, and component heads at the St. Elizabeths West campus in 
southeast DC.
    I was a vocal supporter of the DHS consolidation plan when it was 
first presented. At that time, I expressed my concerns about the 
Department and its track record of taking on large-scale procurement 
projects. I also asked DHS and GSA to make sure that small and minority 
businesses were a part of the fabric of this consolidation. DHS and GSA 
completed the first phase of the three-phase consolidation project on 
time and on budget.
    However, Phase II and III of the consolidation project have been 
stalled. According to the Government Accountability Office, St. 
Elizabeths lacks reliable cost and schedule estimating practices. 
However, we must look at what DHS and GSA have to work with. The DHS 
consolidation plan has never been has not received full funding for the 
headquarters consolidation since the American Recovery and Reinvestment 
Act (ARRA) funding was appropriated in fiscal years 2009 to 2010 which 
allowed for the U.S. Coast Guard Headquarters to be completed during 
Phase I of the construction.
    As we are here to look at GAO and its audit, we must recognize 
everyone's responsibility in this matter. GSA serves as the broker, 
developer, and property manager for the headquarters consolidation. 
However, Congressional appropriation of funding of St. Elizabeths 
continues to be uncertain as the House's fiscal year 2015 Financial 
Service and General Government Appropriations bill zeroed out funding 
for GSA.
    How can we expect the Department to have a consolidated 
headquarters if we do not give them money to build it? Mr. Chairman, as 
we are here to examine waste, fraud, and abuse--let's keep some common-
sense and figures in mind--if the consolidation project was completed, 
the Federal Government would own the space. Sixty-nine percent of the 
commercial leases for DHS will expire between fiscal years 2016 and 
2020.
    The headquarters consolidation is $4.5 billion, DHS would spend 
upwards of $5.2 billion, or approximately $700 million more over the 
next 30 years to continue leasing space in the National Capital Region. 
St. Elizabeths will cost the Department more up-front, but over time, 
the headquarters consolidation will pay for itself as its tenant costs 
will only be competed once. In an era where we daily speak about waste, 
fraud, and abuse, we should be vigilant and understand the costs of 
this project and take steps to fund it.

    Mr. Duncan. We are pleased to have a distinguished panel of 
witnesses before us today on this important topic. Let me 
remind the witnesses that their entire written statement will 
appear in the record. I will introduce each of you first and 
then I will recognize you individually for your testimony.
    Our first witness is Mr. David Maurer. He became the 
director in the Government Accountability Office, GAO, Homeland 
Security and Justice team in 2009, where he leads GAO's work 
reviewing DHS and DOJ management issues. His work recently 
covers DHS management integration, nuclear smuggling, research 
and development at DHS, DOJ grant management, crowding in the 
Federal prison system, and counterterrorism staffing vacancies 
at the FBI.
    The second witness is Mr. Chris Cummiskey. He was appointed 
acting under secretary for management at DHS earlier this year. 
Mr. Cummiskey oversees Management Directorate's programs, 
processes, and personnel through the six line business chiefs. 
The director is responsible for Department-wide management and 
operations. Mr. Cummiskey also serves as the chief acquisition 
officer, overseeing $19 billion in acquisition programs and 
overseeing the Department's headquarter consolidation project 
at St. Elizabeths. Prior to his appointment to this position, 
he served as deputy under secretary for management and chief of 
staff for the Management Directorate.
    Our third witness is Mr. Norman Dong. He serves as the 
commissioner of the Public Buildings Service for the USGSA. 
Through this position, Mr. Dong leads one of the largest and 
most diversified public real estate portfolios in the world, 
managing Nation-wide assets, design, construction, leasing, 
building management, and disposal of Federal building space. 
Prior to joining GSA, Mr. Dong was acting controller at the 
Office of Management and Budget.
    I want to thank all of you gentlemen for being here today. 
I will now recognize Mr. Maurer to testify.

 STATEMENT OF DAVID C. MAURER, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Maurer. Good morning, Chairman Duncan, Ranking Member 
Barber, and other Members and staff. I am pleased to be here 
today to discuss the findings from our review of DHS 
Headquarters consolidation at the St. Elizabeths campus here in 
the District of Columbia.
    This is not a new issue. Seven years ago we issued a report 
expressing concerns about the future of the project. We 
recommended, among other things, that GSA and DHS develop a 
comprehensive cost analysis and comparison of alternatives. 
Both DHS and GSA said a dispersed DHS Headquarters was 
unacceptable and did not see the need to further refine 
estimates or consider alternatives. That proved to be a missed 
opportunity. So here we are today, costs have grown, schedules 
have slipped, and we are now, under current plans, 12 years 
away from project completion.
    Now, it is important to recognize that GAO has no position 
on whether DHS should consolidate its headquarters at St. 
Elizabeths. That is a policy call. Congress will ultimately 
decide what to fund and when to fund it. Our report being 
issued today is designed to help inform those decisions.
    We do think it is critically important for DHS and GSA to 
update plans, adapt to a change in circumstances, and apply 
leading practices. Our work found significant problems in the 
current plans and cost and schedule estimates.
    DHS and GSA issued the current plans in a series of 
documents from 2006 through 2009. Unfortunately, these plans 
are frozen in time. A lot has changed. Congress has provided 
$1.6 billion less in funding than requested. DHS' footprint in 
the National Capital Region has grown over 20 percent. 
Standards for telework and average space per worker have 
changed. DHS and GSA need to update their plans to reflect 
these realities.
    More fundamentally, it is worth taking an updated look at 
alternative approaches to headquarters consolidation to ensure 
building out St. Elizabeths is the best, most cost-efficient 
option for meeting DHS' needs. That would include reviewing, 
among other things, DHS' current National Capital Region 
leasing portfolio.
    We also reviewed the current cost estimates for the project 
and found that they are unreliable because, at best, they only 
partially conform to leading practices. For example, DHS and 
GSA have not regularly updated their estimates and have 
optimistically assumed future cost growth no greater than the 
rate of inflation. We also found that the project schedule only 
minimally conforms to leading practices. Among other things, it 
does not fully account for when labor, material, and equipment 
will be needed and has not been fully updated since 2008.
    GSA contends their leading practices don't apply to large-
scale construction projects like St. Elizabeths. We think they 
do. In fact, GSA was involved in developing our leading 
practices. They are recognized and required by OMB and have 
been used to assess several construction projects at a wide 
variety of Federal agencies. But to be fair, at GSA's request, 
we did additional work looking at their compliance with their 
own standards for cost and schedule. We found that all too 
often GSA did not comply with its own rules.
    For example, GSA guidance requires projects to develop a 
life-cycle cost estimate that includes the cost to build and 
operate the facility. However, the St. Elizabeths cost estimate 
only includes the cost to build, not the cost of repair, 
operations, and maintenance. GSA guidance calls for developing 
an approved baseline schedule to allow comparison between 
planned and actual time frames. We found no evidence of a 
schedule baseline document to help measure performance of the 
project.
    We have recommendations in our report to strengthen the 
management of this project, and I am pleased that DHS and GSA 
agree with them and will be updating their plans, improving 
their oversight, and enhancing their cost and schedule 
estimates. That is a big improvement over 7 years ago. It will 
help enhance the overall management of this large, complex 
project and provide Congress better information to inform 
future decisions.
    In closing, Congress needs a clearer road map for the St. 
Elizabeths project. You need to know how long it will take, how 
much it will cost, and how it will ultimately benefit the 
taxpayers. Our report concludes that Congress should consider 
making future funding for St. Elizabeths contingent on DHS and 
GSA answering those questions. Implementing our recommendations 
will better position both organizations to do just that.
    That concludes my opening remarks. Thank you for the 
opportunity to testify this morning.
    [The prepared statement of Mr. Maurer follows:]
                 Prepared Statement of David C. Maurer
                           September 19, 2014
    Mr. Chairman and Members of the subcommittee: I am pleased to be 
here today to discuss our report, which is being released today, on the 
Department of Homeland Security (DHS) Headquarters consolidation 
project at St. Elizabeths Campus in Washington, DC.\1\ The $4.5 billion 
construction project, managed by DHS and the General Services 
Administration (GSA),\2\ is the centerpiece of DHS's larger effort to 
manage and consolidate its workforce of over 20,000 in the National 
Capital Region (NCR).\3\ As conceived in 2006, the Federally-owned St. 
Elizabeths site was designed to consolidate DHS's executive leadership, 
operational management, and other personnel at one secure location 
rather than at multiple locations throughout the Washington, DC, 
metropolitan area.\4\ Specifically, DHS envisioned moving about 14,000 
staff to the new headquarters facility and housing its remaining 
personnel in other consolidated spaces across the region. With a 
current projected completion date of 2026, the St. Elizabeths project 
is intended to provide DHS a secure facility to allow for more 
efficient incident management response and command-and-control 
operations, and also provide long-term cost savings by reducing 
reliance on leased space.
---------------------------------------------------------------------------
    \1\ GAO, Federal Real Property: DHS and GSA Need to Strengthen the 
Management of DHS Headquarters Consolidation, GAO-14-648 (Washington, 
DC: Sept. 19, 2014).
    \2\ GSA, the landlord for the civilian Federal Government, acquires 
space on behalf of the Federal Government through new construction and 
leasing, and acts as a caretaker for Federal properties across the 
country. As such, GSA had the responsibility to select the specific 
site for a new, consolidated DHS Headquarters facility, based on DHS 
needs and requirements.
    \3\ The National Capital Region is composed of the District of 
Columbia and nearby jurisdictions in Maryland and Virginia.
    \4\ The St. Elizabeths campus is a National Historic Landmark and a 
former Federally-run hospital for the mentally ill.
---------------------------------------------------------------------------
    My testimony is based on and summarizes the key findings of our 
report issued today, on DHS and GSA efforts to manage the DHS 
headquarter consolidation project. My statement will address the extent 
to which DHS and GSA have: (1) Developed DHS Headquarters consolidation 
plans in accordance with leading capital decision-making practices and 
(2) estimated the costs and schedules of the DHS Headquarters 
consolidation project at St. Elizabeths in a manner that is consistent 
with leading practices. To do our work we compared DHS and GSA capital 
planning efforts against applicable leading practices in capital 
decision making and interviewed DHS and GSA officials responsible for 
the planning and management of the DHS Headquarters consolidation.\5\ 
We also compared DHS and GSA documents on the estimated cost and 
schedule for the St. Elizabeths project with GAO cost- and schedule-
estimating leading practices and relevant GSA guidance.\6\ More 
detailed information on the scope and methodology can be found in our 
published report.\7\ The work upon which this statement is based was 
conducted in accordance with generally accepted Government auditing 
standards.
---------------------------------------------------------------------------
    \5\ GAO, Executive Guide: Leading Practices in Capital Decision-
Making; GAO/AIMD-99-32 (Washington, DC: Dec. 1, 1998) and Office of 
Management and Budget (OMB), Capital Programming Guide, Supplement to 
OMB Circular A-11 (Washington, DC: July 2014).
    \6\ GAO, GAO Cost Estimating and Assessment Guide: Best Practices 
for Developing and Managing Capital Program Costs, GAO-09-3SP 
(Washington, DC: Mar. 2, 2009) and GAO Schedule Assessment Guide: Best 
Practices for Project Schedules, GAO-12-120G (Washington, DC: May 
2012).
    \7\ GAO-14-648.
---------------------------------------------------------------------------
                               background
    The Homeland Security Act of 2002 combined 22 Federal agencies 
specializing in various missions under DHS.\8\ Numerous Departmental 
offices and seven key operating components are headquartered in the 
NCR.\9\ When DHS was formed, the headquarters functions of its various 
components were not physically consolidated, but instead were dispersed 
across the NCR in accordance with their history. As of July 2014, DHS 
employees were located in 94 buildings and 50 locations, accounting for 
approximately 9 million gross square feet of Government-owned and -
leased office space.
---------------------------------------------------------------------------
    \8\ Pub. L. No. 107-296, 116 Stat. 2135.
    \9\ Departmental offices encompass core management and policy 
functions, among other things. The seven core DHS operating components 
headquartered in the NCR are U.S. Citizenship and Immigration Services, 
U.S. Coast Guard, U.S. Customs and Border Protection, Federal Emergency 
Management Agency, U.S. Immigration and Customs Enforcement, U.S. 
Secret Service, and Transportation Security Administration.
---------------------------------------------------------------------------
    DHS began planning the consolidation of its headquarters in 2005. 
According to DHS, increased colocation and consolidation were critical 
to: (1) Improve mission effectiveness, (2) create a unified DHS 
organization, (3) increase organizational efficiency, (4) size the real 
estate portfolio accurately to fit the mission of DHS, and (5) reduce 
real estate occupancy costs. Between 2006 and 2009, DHS and GSA 
developed a number of capital planning documents to guide the DHS 
Headquarters consolidation process. For example, DHS's National Capital 
Region Housing Master Plan identified a requirement for approximately 
4.5 million square feet of office space on a secure campus. In 
addition, DHS's 2007 Consolidated Headquarters Collocation Plan 
summarized component functional requirements and the projected number 
of seats needed on- and off-campus for NCR Headquarters personnel.
    From fiscal year 2006 through fiscal year 2014, the St. Elizabeths 
consolidation project had received $494.8 million through DHS 
appropriations and $1.1 billion through GSA appropriations, for a total 
of over $1.5 billion. However, from fiscal year 2009--when construction 
began--through the time of the fiscal year 2014 appropriation, the gap 
between requested and received funding was over $1.6 billion. According 
to DHS and GSA officials, this gap created cost escalations of over $1 
billion and schedule delays of over 10 years.
  dhs and gsa consolidation plans did not fully conform with leading 
                   capital decision-making practices
    In our September 2014 report, we found that DHS and GSA planning 
for the DHS Headquarters consolidation did not fully conform with 
leading capital decision-making practices intended to help agencies 
effectively plan and procure assets.\10\ Specifically, we found that 
DHS and GSA had not conducted a comprehensive assessment of current 
needs, identified capability gaps, or evaluated and prioritized 
alternatives that would help officials adapt consolidation plans to 
changing conditions and address funding issues as reflected in leading 
practices. DHS and GSA officials reported that they had taken some 
initial actions that may facilitate consolidation planning in a manner 
consistent with leading practices. For example, DHS has an overall goal 
of reducing the square footage allotted per employee across the 
Department in accordance with current workplace standards, such as 
standards for telework and hoteling.\11\ DHS and GSA officials 
acknowledged that new workplace standards could create a number of new 
development options to consider, as the new standards would allow for 
more staff to occupy the current space at St. Elizabeths than 
previously anticipated. DHS and GSA officials also reported analyzing 
different leasing options that could affect consolidation efforts. 
However, we found that the consolidation plans, which were finalized 
between 2006 and 2009, had not been updated to reflect these actions.
---------------------------------------------------------------------------
    \10\ Congress, OMB, and GAO have all identified the need for 
effective capital decision making among Federal agencies. OMB's Capital 
Programming Guide, along with GAO's Executive Guide: Leading Practices 
in Capital Decision-Making provides detailed guidance to Federal 
agencies on leading practices for the four phases of capital 
programming--planning, budgeting, acquiring, and managing capital 
assets. These practices are, in part, intended to provide a disciplined 
approach or process to help Federal agencies effectively plan and 
procure assets to achieve the maximum return on investment.
    \11\ Telework is a work arrangement in which employees perform all 
or a portion of their work at an alternative work site, such as from 
home or a telework center. Hoteling allows allow employees to work at 
multiple sites and use nondedicated, nonpermanent workspaces assigned 
for use by reservation on an as-needed basis.
---------------------------------------------------------------------------
    In addition, we found that current funding for the St. Elizabeths 
project had not aligned with what DHS and GSA initially planned. 
According to DHS and GSA officials, the funding gap between what DHS 
and GSA requested and what was received from fiscal years 2009 through 
2014, was over $1.6 billion. According to these officials, this gap 
created cost escalations of over $1 billion and schedule delays of over 
10 years relative to original estimates. These delays have posed 
challenges for DHS in terms of its current leasing portfolio. 
Specifically, DHS's long-term leasing portfolio was developed based on 
the original expected completion date for St. Elizabeths development in 
2016. According to DHS leasing data, 52 percent of DHS's current NCR 
leases will expire in 2014 and 2015, accounting for almost 39 percent 
of its usable square feet. However, we found that DHS and GSA had not 
conducted a comprehensive assessment of current needs, identified 
capability gaps, or evaluated and prioritized alternatives that would 
help officials adapt consolidation plans to changing conditions and 
address funding issues, as reflected in leading practices for capital 
decision making.\12\ DHS and GSA reported that they have begun to work 
together to consider changes to the DHS Headquarters consolidation 
plans, but they had not announced when new plans will be issued. 
Furthermore, because final documentation of agency deliberations or 
analyses had not yet been developed, it was unclear if any new plans 
would be informed by an updated comprehensive needs assessment and 
capability gap analysis as called for by leading capital decision-
making practices. Therefore, in our September 2014 report, we 
recommended that DHS and GSA conduct: (1) A comprehensive needs 
assessment and gap analysis of current and needed capabilities that 
takes into consideration changing conditions, and (2) an alternatives 
analysis that identifies the costs and benefits of leasing and 
construction alternatives for the remainder of the project and 
prioritizes options to account for funding instability. DHS and GSA 
concurred with these recommendations and stated that their forthcoming 
draft St. Elizabeths Enhanced Consolidation Plan would contain these 
analyses.
---------------------------------------------------------------------------
    \12\ GAO/AIMD-99-32 and OMB Capital Programming Guide.
---------------------------------------------------------------------------
    Finally, we found that DHS had not consistently applied its major 
acquisition guidance for reviewing and approving the headquarters 
consolidation project. Specifically, we found that DHS had guidelines 
in place to provide senior management the opportunity to review and 
approve its major projects, but DHS had not consistently applied these 
guidelines to its efforts to work with GSA to plan and implement 
headquarters consolidation. DHS had designated the headquarters 
consolidation project as a major acquisition in some years but not in 
others. In 2010 and 2011, DHS identified the headquarters consolidation 
project as a major acquisition and included the project on DHS's Major 
Acquisitions Oversight List.\13\ Thus, the project was subject to the 
oversight and management policies and procedures established in DHS 
major acquisition guidance; however, the project did not comply with 
major acquisition requirements as outlined by DHS guidelines. For 
example, we found that the project had not produced any of the required 
key acquisition documents requiring Department-level approval, such as 
life-cycle cost estimates and an acquisition program baseline, among 
others. In 2012, the project as a whole was dropped from the list. In 
2013 and 2014, DHS included the information technology (IT) acquisition 
portion of the project on the list, but not the entire project. DHS 
officials explained that they considered the St. Elizabeths project to 
be more of a GSA acquisition than a DHS acquisition because GSA owns 
the site and the majority of building construction is funded through 
GSA appropriations. We recognize that GSA has responsibility for 
managing contracts associated with the headquarters consolidation 
project. However, a variety of factors, including the overall cost, 
scope, and visibility of the project, as well as the overall importance 
of the project in the context of DHS's mission, make the consolidation 
project a viable candidate for consideration as a major acquisition. By 
not consistently applying this review process to headquarters 
consolidation, we concluded that DHS management risked losing insight 
into the progress of the St. Elizabeths project, as well as how the 
project fits in with its overall acquisitions portfolio. Thus, in our 
September 2014 report, we recommended that the Secretary of Homeland 
Security designate the headquarters consolidation program a major 
acquisition, consistent with DHS acquisition policy, and apply DHS 
acquisition policy requirements. DHS concurred with the recommendation.
---------------------------------------------------------------------------
    \13\ DHS reviews its acquisition portfolio annually and designates 
programs as major acquisitions based on DHS investment thresholds. 
Generally, programs that incur costs greater than $300 million over the 
life cycle of the program are considered major acquisitions. In 2014, 
DHS changed the name of the Major Acquisition Oversight List to the 
Master Acquisition Oversight List to more accurately distinguish 
between the Department's major (Level 1 and 2) and non-major (Level 3) 
acquisitions and non-acquisition activities included in the list.
---------------------------------------------------------------------------
dhs and gsa cost and schedule estimates for the st. elizabeths project 
                   did not reflect leading practices
    In our September 2014 report, we found that DHS and GSA cost and 
schedule estimates for the headquarters consolidation project at St. 
Elizabeths did not conform or only minimally or partially conformed 
with leading estimating practices, and were therefore unreliable.\14\ 
Furthermore, we found that in some areas, the cost and schedule 
estimates did not fully conform with GSA guidance relevant to 
developing estimates.
---------------------------------------------------------------------------
    \14\ GAO-09-3SP and GAO-12-120G. For both the cost and schedule 
estimates, our analysis focused on how well DHS and GSA met each of the 
four characteristics based on our assessment of conformance to the 
leading practices associated with that characteristic. We then arrayed 
the extent to which DHS and GSA cost and schedule estimates conformed 
with the four characteristics of each using five rating categories--
fully meets, substantially meets, partially meets, minimally meets, or 
does not meet.
---------------------------------------------------------------------------
Cost Estimates
    We found that DHS and GSA cost estimates for the headquarters 
consolidation project at St. Elizabeths did not reflect leading 
practices, which rendered the estimates unreliable. For example, we 
found that the 2013 cost estimate--the most recent available--did not 
include: (1) A life-cycle cost analysis of the project, including the 
cost of repair, operations, and maintenance; (2) was not regularly 
updated to reflect significant changes to the program including actual 
costs; and (3) did not include an independent estimate to assist in 
tracking the budget. In addition, a sensitivity analysis had not been 
performed to assess the reasonableness of the cost estimate. We have 
previously reported that a reliable cost estimate is critical to the 
success of any program.\15\ Specifically, we have found that such an 
estimate provides the basis for informed investment decision making, 
realistic budget formulation and program resourcing, meaningful 
progress measurement, pro-active course correction when warranted, and 
accountability for results. Accordingly, we concluded that DHS and GSA 
would benefit from maintaining current and well-documented estimates of 
project costs at St. Elizabeths--even if project funding is not fully 
secured--and these estimates should encompass the full life-cycle of 
the program and be independently assessed.
---------------------------------------------------------------------------
    \15\ GAO-09-3SP.
---------------------------------------------------------------------------
Schedule Estimates
    In addition, we found that the 2008 and 2013 schedule estimates did 
not include all activities for both the Government and its contractors 
necessary to accomplish the project's objectives and did not include 
schedule baseline documents to help measure performance as reflected in 
leading practices and GSA guidance. For the 2008 schedule estimate, we 
also found that resources (such as labor, materials, and equipment) 
were not accounted for and a risk assessment had not been conducted to 
predict a level of confidence in the project's completion date. In 
addition, we found the 2013 schedule estimate was unreliable because, 
among other things, it was incomplete in that it did not provide 
details needed to understand the sequence of events, including work to 
be performed in fiscal years 2014 and 2015.
    We concluded that developing cost and schedule estimates consistent 
with leading practices could promote greater transparency and provide 
decision makers needed information about the St. Elizabeths project and 
the larger DHS Headquarters consolidation effort. However, in 
commenting on our analysis of St. Elizabeths cost and schedule 
estimates, DHS and GSA officials said that it would be difficult or 
impossible to create reliable estimates that encompass the scope of the 
entire St. Elizabeths project. Officials said that given the complex, 
multi-phase nature of the overall development effort, specific 
estimates are created for smaller individual projects, but not for the 
campus project as a whole. Therefore, in their view, leading estimating 
practices and GSA guidance cannot reasonably be applied to the high-
level projections developed for the total cost and completion date of 
the entire St. Elizabeths project. GSA stated that the higher-level, 
milestone schedule currently being used to manage the program is more 
flexible than the detailed schedule GAO proposes, and has proven 
effective even with the highly-variable funding provided for the 
project.
    We found in our September 2014 report, however, that this high-
level schedule was not sufficiently defined to effectively manage the 
program. For example, our review showed that the schedule did not 
contain detailed schedule activities that include current Government, 
contractor, and applicable subcontractor effort. Specifically, the 
activities shown in the schedule only address high-level agency square 
footage segments, security, utilities, landscape, and road 
improvements. While we understand the need to keep future effort 
contained in high-level planning packages, in accordance with leading 
practices, near-term work occurring in fiscal years 2014 and 2015 
should have more detailed information. We recognize the challenges of 
developing reliable cost and schedule estimates for a large-scale, 
multi-phase project like St. Elizabeths, particularly given its 
unstable funding history and that incorporating GAO's cost- and 
schedule-estimating leading practices may involve additional costs. 
However, unless DHS and GSA invest in these practices, Congress risks 
making funding decisions and DHS and GSA management risk making 
resource allocation decisions without the benefit that a robust 
analysis of levels of risk, uncertainty, and confidence provides. As a 
result, in our September 2014 report, we recommended that, after 
revising the DHS Headquarters consolidation plans, DHS and GSA develop 
revised cost and schedule estimates for the remaining portions of the 
consolidation project that conform to GSA guidance and leading 
practices for cost and schedule estimation, including an independent 
evaluation of the estimates. DHS and GSA concurred with the 
recommendation.
    In our September 2014 report, we also stated that Congress should 
consider making future funding for the St. Elizabeths project 
contingent upon DHS and GSA developing a revised headquarters 
consolidation plan, for the remainder of the project, that conforms 
with leading practices and that: (1) Recognizes changes in workplace 
standards, (2) identifies which components are to be colocated at St. 
Elizabeths and in leased and owned space throughout the NCR, and (3) 
develops and provides reliable cost and schedule estimates.
    Mr. Chairman and Members of the subcommittee, this concludes my 
prepared statement. I look forward to responding to any questions that 
you may have.

    Mr. Duncan. Thank you, Mr. Maurer.
    The Chairman will now recognize Mr. Cummiskey to testify 
for 5 minutes.

     STATEMENT OF CHRIS CUMMISKEY, ACTING UNDER SECRETARY, 
  MANAGEMENT DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Cummiskey. Good morning, Mr. Chairman and Ranking 
Member Barber, Members of the committee. Thank you so much for 
the opportunity to join you this morning. As was indicated, my 
name is Chris Cummiskey. I am the acting under secretary for 
management and chief acquisition officer for the Department. It 
is an opportunity today to share the dais here with Mr. Dong 
and Mr. Maurer, two gentlemen for which I have utmost respect 
who have made significant contributions to this project and 
others.
    I appreciate the Chairman and the Ranking Member's efforts 
certainly around 4228 and other efforts to strengthen 
acquisition oversight at the Department. We support those 
efforts and hope that that will pass shortly. I wanted to draw 
your attention to just a couple of points about the track 
record of success in the development of St. Elizabeths to date 
in Phase I, the Coast Guard Headquarters. I also want to assert 
that through the program of record that we have put on the 
table taxpayers will save money and will foster greater unity 
of efforts at the Department.
    I have to be honest with you. When I arrived at the 
Department as part as Secretary Napolitano's team in 2009 as a 
former State senator and member of the Appropriations Committee 
there in that State, I had a fair amount of skepticism as to 
what we had inherited from Secretary Chertoff and his team, but 
it didn't take long to understand exactly what they were 
talking about. I think that is reflected in former Deputy 
Secretary Schneider's comments in that the essential value of 
this project is the consolidation of the 50 locations across 
the Department down to something lower than 10, which I think 
is a critical part of this.
    To frame the discussion today, I think it is also important 
to understand the respective roles and the responsibilities 
between DHS as a tenant agency and GSA as a landlord. Our role 
at the Department is to establish program requirements while 
our partners at GSA manage the property development itself. In 
fact, the bulk of the funding does go to GSA, and in fiscal 
year 2014 our share of the money that was appropriated by 
Congress is $35 million. Our request in fiscal year 2015 is $57 
million.
    I would just like to make three simple points. The first 
thing I want to draw your attention to is the record of success 
in what we delivered with the Coast Guard Headquarters at St. 
Elizabeths. That project, for the portions that were funded by 
Congress, came in on time and on budget for the moneys that 
Chairman Duncan articulated. When we receive consistent 
funding, we can deliver on time and on budget. We have 
accomplished that and we believe that can be accomplished 
through the remainder of the phases.
    Second, I want to highlight the benefits to the U.S. 
taxpayer of continued consolidation of the DHS footprint. In 
the 2013 review of GSA high-value leases, GAO noted the timing 
is ripe for targeted investments to take the Department out of 
long-term, high-value commercial leases and into efficient 
Federally-owned space and lower long-term costs. With 69 
percent of DHS' Headquarters and component leases in the NCR 
expiring between fiscal year 2016 and fiscal year 2020, the 
Department will pay for those replacements regardless of the 
future of St. Elizabeths funding. By consolidating our 
operations at St. Elizabeths, the 30-year present value cost of 
Federal construction is nearly $700 million less than 
commercial leasing as reported by GSA, in their fiscal year 
2015 prospectus submission, indicates.
    Third, headquarters consolidation enhances the Unity of 
Effort that Secretary Johnson has so articulately depicted at 
DHS. A key focus for the Secretary has been to bring together 
the disparate components that are spread across the NCR, and 
after 6 years at the Department I have seen first-hand what it 
means when you are in a crisis situation and your component 
heads are scattered across the National Capital Region.
    One of the things that this project brings to bear is the 
centralization of The National Operations Center, which 
Secretary Chertoff and Deputy Secretary Schneider and so many 
of my former colleagues have articulated is essential to the 
command-and-control structure of the Department.
    Finally, I just want to indicate that in the GAO findings, 
we concur with those findings. As the chief acquisition 
officer, this week I issued an acquisition decision memorandum 
which codifies that the portions of the project that are under 
our purview, as I indicated in 2014, that is $35 million, and 
the request in 2015 is $57 million, will be subject to the 
Acquisition Review Board process. We can't take Mr. Dong's 
acquisitions and apply them to our process, but we will do it 
for the portions that we oversee.
    Finally, let me just say that my experience has been there 
is no finer project management team than Chris Mills at DHS and 
Shapour Ebadi at the GSA. These are individuals that know how 
to deliver projects. They have done it with Phase I at the 
Coast Guard. They will continue to do it with support from the 
Congress. I am just pleased to be here to say, yeah, we have 
got programs across the DHS portfolio that are troubled. I do 
not view this as one of them. I stand ready to answer questions 
for the Members. Thank you.
    [The prepared statement of Mr. Cummiskey follows:]
                 Prepared Statement of Chris Cummiskey
                           September 19, 2014
    Chairman Duncan, Ranking Member Barber, and Members of the 
committee, good morning. Thank you for the opportunity to discuss the 
DHS Consolidated Headquarters at St. Elizabeths. I am Chris Cummiskey, 
acting under secretary for management for the Department of Homeland 
Security. My responsibilities include the management of the 
Department's facilities and property. I am pleased to appear before 
this committee with my colleagues from the General Services 
Administration and Government Accountability Office to discuss the 
development of St. Elizabeths and the DHS Headquarters Consolidation 
plan. Greater consolidation of DHS facilities provides tangible 
benefits to taxpayers and the Department.
    In the DHS National Capital Region Housing Master Plan, submitted 
to the Congress in 2006 in cooperation with GSA, Secretary Chertoff 
stated that the program was necessary to secure and strengthen DHS 
operations by unifying our core headquarters with those of our 
components and to yield more effective management. Today, Secretary 
Johnson remains focused on robust cross-component Unity of Effort and a 
culture of savings to minimize waste, eliminate duplication, and focus 
scarce resources on mission execution. The Department continues to 
support consolidation of our headquarters facilities and St. Elizabeths 
is part of that program.
    The Government Accountability Office (GAO) reported in a 2013 
review of GSA High-Value Leases (Report 13-744), that as agencies work 
to shrink their footprints through implementation of flexible workplace 
strategies and increased efficiencies, there are opportunities to make 
targeted investments out of high-value commercial leases and into 
efficient Federal space that will result in lower long-term costs to 
the taxpayer. The Department agrees with this GAO assessment and notes 
that it forms the foundation of the DHS Headquarters Consolidation 
Plan. St. Elizabeths is Federal space and was retained by GSA 
specifically for agencies with high security requirements. It is an 
anchor property already, housing the U.S. Coast Guard's Headquarters.
    To frame the discussion of DHS Headquarters consolidation efforts, 
it is important to understand the respective roles and responsibilities 
between tenant agencies, such as DHS and GSA. In GAO Report 13-744, 
GSA's lead role in housing civilian agencies is noted as follows:

 . . . Within the vast portfolio of government owned and leased assets, 
GSA plays the role of broker and property manager to many civilian 
agencies of the U.S. government . . . \1\
---------------------------------------------------------------------------
    \1\ GAO 13-744; Federal Real Property: Greater Transparency and 
Strategic Focus Needed for High-Value GSA Leases; September 2013, page 
4.

    As a tenant agency, the Department of Homeland Security's role is 
to establish programmatic requirements; to budget for and fund tenant 
responsible items; to maintain a close partnership and monitor GSA's 
use of DHS funds; to validate that GSA managed design and construction 
meets the operational and program requirements for DHS; and to 
coordinate with GSA and all stakeholders throughout the process. 
Property development activities are managed by GSA in accordance with 
GSA policies, under GSA supervision, and under applicable statutes. The 
Department fully cooperates with GSA but does not exercise acquisition 
oversight nor direct supervisory control over GSA housing or 
procurement decisions. DHS is an active participant in tenant 
improvement decisions.
    The original DHS Headquarters Consolidation plan, as developed by 
GSA in coordination with DHS, OMB, and Congress, proposed to complete 
the full development of St. Elizabeths in 2016 based on the start of 
construction funding in 2009. This plan was developed in conjunction 
with a comprehensive 3.5-year Master Plan, environmental impact 
statement, and historic preservation review process. Following the 
Master Plan approval, GSA completed the U.S. Coast Guard Headquarters 
relocation to St. Elizabeths on-time and on-budget for the portions of 
the project funded by the Congress. This was a commendable achievement 
given that GSA was not fully funded for all planned building and 
infrastructure development to support the U.S. Coast Guard relocation.
    Unfortunately the original plan has not been appropriated the 
requested funding necessary to carry it out. As a result, in 2013 GSA 
and DHS developed a revised construction baseline to reflect the 
funding reduction in fiscal year 2011 and fiscal year 2012 and reduced 
annual development segments to more fiscally manageable levels that 
extended construction out to 2026. The schedule extension increased the 
estimate of future construction, due to inflation-only adjustments (no 
change in requirements) to $4.5 billion. Although inflation increased 
the estimate for future work, consolidation into Federal space still 
provides the Department long-term financial benefits over leasing 
according to GSA's analysis.
    With the revised construction baseline in place, GSA and DHS began 
updating the Headquarters Consolidation plan in the fall of 2013 to 
address the on-going changes in workplace design and flexible workplace 
strategies that have gained broad acceptance over the last several 
years. In fact, the Management Directorate's Office of the Chief 
Readiness Support Officer adopted these strategies within their own 
office by implementing a pilot program to reduce office space by 50 
percent and save over $1 million in annual rent costs. DHS and GSA are 
applying the lessons learned from this pilot program to update the DHS 
Headquarters Consolidation plan. The revised plan will result in lower 
costs and a shortened time frame if funded by the Congress, while 
accommodating greater utilization and more employees assigned to the 
campus within the Master Plan seat limitations.
    The Department has made a commitment through the Freeze the 
Footprint initiative to increase space utilization from the current 
figure of about 210 Useable Square Feet (USF) per person of office 
space, to 150 USF. These actions will reduce costs and improve space 
efficiency in the future and apply to the St. Elizabeths development.
    An additional important note is that 69 percent of DHS Headquarters 
and component leases in the National Capital Region will expire between 
fiscal year 2016 and fiscal year 2020. DHS tenant costs will be 
incurred with these lease replacements, regardless of future decisions 
on St. Elizabeths funding. As the commercial leases expire, they must 
be re-competed. These are not discretionary investments. These are 
``must pay'' requirements. Without headquarters consolidation efforts 
for the DHS and component headquarters portfolio, we will perpetuate 
the status quo of dispersed locations and a long-term increased lease 
costs over housing components in fewer locations and at Federal space 
on the St. Elizabeths campus.
    DHS strives to capitalize Unity of Effort opportunities that allow 
us to remain focused on our core mission--to protect the homeland. We 
look forward to further engagement with this committee regarding the 
DHS Headquarters Consolidation program.
    In closing, I would like to assure this committee that DHS is 
working hard to remain a good steward of the taxpayers' money by 
managing our real estate portfolio, both Government-owned and -leased, 
in a cost-effective manner. The men and women who work tirelessly to 
protect the homeland deserve and require adequate facilities to support 
and execute their mission.
    Thank you very much. I would be pleased to answer any questions the 
committee may have.

    Mr. Duncan. Thank you.
    Commissioner Dong.

   STATEMENT OF NORMAN DONG, COMMISSIONER, PUBLIC BUILDINGS 
         SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Dong. Good morning, Chairman Duncan, Ranking Member 
Barber, and Members of the subcommittee. My name is Norman 
Dong, and I am the commissioner of GSA's Public Buildings 
Service. Thank you for inviting me to discuss the on-going 
consolidation of DHS Headquarters at St. Elizabeths. I would 
like to make three points this morning.
    First, St. Elizabeths is a critical element in GSA's effort 
to consolidate Government real estate and to reduce overhead 
costs. By consolidating DHS facilities across the National 
Capital Region we can reduce future real estate costs, enhance 
mission effectiveness, and redevelop an underutilized asset 
already in the Federal portfolio.
    This project allows to us shift more than 50 DHS leases 
across the National Capital Region to a Federally-owned campus 
at St. Elizabeths. As GAO has noted, long-term leasing is often 
far more expensive than Government ownership, especially when 
it comes to unique requirements like what we see for DHS. In 
the case of St. Es, the 30-year present value cost of leasing 
would be nearly $700 million more expensive than construction. 
This translates into an annual savings of more than $35 
million.
    With this project we are also able to house more people in 
less space. When the entire project is complete, St. Es will 
provide 14,000 seats for DHS employees on any given day. By 
adopting flexible workplace strategies like telework and desk 
sharing, DHS can accommodate even more employees in these 
seats. GSA is working with DHS on an updated housing strategy 
to maximize space utilization at St. Elizabeths and to achieve 
even greater cost savings for the Department.
    Second, as GAO has noted, funding uncertainty has created 
serious challenges for the St. Elizabeths project. Piecemeal 
funding has extended the project's schedule and added cost. 
Congress appropriated resources for the project at a level far 
below the President's request in fiscal year 2011 and fiscal 
year 2012. Without stable funding, we will see more delays and 
more cost increases.
    When the project began in 2006 we anticipated completion in 
2016 at a total cost to the Government of $3.4 billion. Without 
funding, however, GSA and DHS had to revise the project 
strategy to reflect smaller, more affordable segments over a 
longer period of time. This had the effect of pushing the time 
line for completion out to 2026. With an extended schedule the 
project cost is now estimated at $4.5 billion. These costs 
increase due to inflation for construction costs as well as the 
cost of demobilization and remobilization of equipment and 
labor. Accelerating the remaining project schedule could reduce 
these additional costs.
    Third, GSA and DHS have developed a strong record of 
success in project delivery at St. Elizabeths. We delivered 
Phase I of the DHS Headquarters project on time and on budget. 
Ultimately the success of this project will be judged by our 
actual results. We delivered Phase I, a new headquarters 
building for the Coast Guard, on time and on budget. In August 
2013 the Coast Guard moved into a headquarters building that 
can accommodate 3,700 personnel. We eliminated five leases and 
moved nearly 1 million square feet of leased space to Federal 
ownership. The successful implementation of the Coast Guard 
Headquarters is an important step towards having a unified, 
consolidated, and secure headquarters for the Department.
    We are now beginning work on the next phase. Congress 
provided $155 million in fiscal year 2014 for adaptive reuse of 
the historic Center Building, and I am pleased to announce that 
we will be awarding the contract for this work by the end of 
September. Our budget request for fiscal year 2015 includes 
$250 million to complete infrastructure and renovation 
necessary to fully occupy the Center Building complex.
    Looking beyond our budget request, GSA is identifying other 
potential sources of funding to support this project. For 
example, with our Federal Triangle South project we are looking 
to exchange our Regional Office Building, as well as the vacant 
Cotton Annex, for additional construction services at St. Es. 
While we are pleased with our project execution, there are also 
opportunities to improve project delivery. We are working with 
DHS to enhance the master plan for St. Es, which will further 
improve space utilization and create even greater savings.
    As we have seen from past experience, when Congress 
provides resources for a construction project GSA has a strong 
record of delivering these projects on-time and on-budget. Our 
work with our Coast Guard Headquarters is a perfect example and 
we plan to build on this initial momentum. The funding Congress 
has provided in fiscal year 2014, along with our fiscal year 
2015 budget request, will allow us to continue forward progress 
on this essential project.
    Thank you for the opportunity to speak with you today, and 
I am happy to answer any questions that you may have.
    [The prepared statement of Mr. Dong follows:]
                   Prepared Statement of Norman Dong
                           September 19, 2014
                              introduction
    Good morning Chairman Duncan, Ranking Member Barber, and Members of 
the subcommittee. My name is Norman Dong, and I am the commissioner of 
the U.S. General Services Administration's Public Buildings Service. 
Thank you for inviting me to discuss the on-going consolidation of the 
Department of Homeland Security's Headquarters components at St. 
Elizabeths in Washington, DC.
    GSA's mission is to deliver the best value in real estate, 
acquisition, and technology services to Government and the American 
people. To meet this mission, GSA is working with agencies across the 
Federal Government to reduce space requirements, improve space 
utilization, reduce real estate costs, and deliver better space that 
allows our Federal partners to better achieve their missions.
    I'd like to make three points today. First, the development of a 
consolidated DHS Headquarters at St. Elizabeths is a critical piece of 
GSA's broader effort to consolidate Government real estate and reduce 
overhead costs across Government. Second, GSA and DHS have developed a 
strong record of success in project delivery at St. Elizabeths. GSA and 
DHS delivered Phase I of the DHS Headquarters project on-time and on-
budget. Third, as the Government Accountability Office correctly notes, 
funding uncertainty has created serious challenges for St. Elizabeths, 
increasing costs and forcing GSA and DHS to extend the project delivery 
schedule.
     opportunities for savings with a consolidated dhs headquarters
    As a part of the administration's Freeze the Footprint initiative, 
GSA is helping our partner Federal agencies minimize overhead costs and 
make more efficient use of the Government's real property assets. We 
are working with agencies to reduce space requirements and shrink real 
estate footprints, reducing building's operating costs through energy-
efficient retrofits and ``smart building'' technology, and leveraging 
partnerships with the private sector to deliver better, more efficient 
space to meet agency mission needs.
    The St. Elizabeths project represents an opportunity to help 
achieve these important goals. By consolidating DHS Headquarters, we 
can reduce future real estate costs, enhance mission effectiveness 
through co-location, and redevelop an underutilized asset already in 
the Federal portfolio.
    Consolidating DHS Headquarters operations in one location will 
eliminate more than 50 DHS leases, shifting millions of square feet of 
leased space to a Federally-owned campus. As GAO has noted, long-term 
leasing is typically far more expensive than Government ownership, 
especially when it comes to unique Governmental requirements like those 
that are required at St. Elizabeths. In the case of St. Elizabeths, the 
30-year present value cost of construction is $698 million less than 
leasing. This results in an annual savings of more than $35 million.
    Additionally, we are generating additional savings by housing more 
people in less space. When the entire project is complete, St. 
Elizabeths will provide space for 14,000 seats. Through implementation 
of flexible workplace strategies, these 14,000 seats can be leveraged 
to accommodate many more employees, and GSA is currently working with 
DHS on this updated approach.
    At the same time, co-location will facilitate an effective response 
in case of a National emergency, optimize internal coordination and 
communication, and foster a cohesive culture among the many agencies 
that now make up the Department.
        on-time, on-budget delivery of phase i of st. elizabeths
    Ultimately, the success of the St. Elizabeths project will be 
judged by its results. Project delivery at St. Elizabeths thus far has 
been a success.
    GSA and DHS have successfully delivered Phase I of the project, 
construction of the new Douglas A. Munro Coast Guard Headquarters 
Building. This state-of-the-art facility will use sustainable 
technologies to drop energy use to more than 30 percent below industry 
standards and cut water usage by nearly 50 percent. Additionally, this 
phase included perimeter security, the renovation of several historic 
buildings, infrastructure improvements throughout the campus, and a 
2,000-car parking garage. We completed Phase I on-time and on-budget, 
and in the process, eliminated five leases and moved nearly 1 million 
square feet of space to Federal ownership. As a result, the Coast Guard 
completed its move to a building on the St. Elizabeths campus that can 
accommodate 3,700 personnel in 2013.
    We are now beginning work on the next phase of the DHS 
Consolidation. Congress provided $155 million in fiscal year 2014 for 
adaptive reuse of the historic Center Building. GSA's fiscal year 2015 
budget request includes $250 million to complete needed infrastructure 
and renovate buildings adjoining the Center Building. This funding will 
allow DHS to fully occupy the Center Building Complex.
    In addition to GSA's annual budget requests, we are seeking 
alternative mechanisms for project delivery. GSA is leveraging the 
value of other properties in our portfolio to expedite delivery of the 
St. Elizabeths campus. Specifically, as a part of our Federal Triangle 
South project, we are engaging the private sector to exchange GSA's 
Regional Office Building and the vacant Cotton Annex for construction 
services that may include renovations of historic buildings at the St. 
Elizabeths campus.
      the impacts of cuts in funding on project costs and schedule
    Of course, funding constraints have had a considerable impact on 
the St. Elizabeths project, much like the rest of the Federal real 
estate portfolio. As GAO has noted many times, uncertainty in funding 
and limited access to the Federal Buildings Fund create a serious 
challenge for the management of real property.\1\
---------------------------------------------------------------------------
    \1\ See Capital Financing: Alternative Approaches to Budgeting for 
Federal Real Property (GAO-14-239) and Federal Buildings Fund: Improved 
Transparency and Long-term Plan Needed to Clarify Capital Funding 
Priorities (GAO-12-646).
---------------------------------------------------------------------------
    For St. Elizabeths, piecemeal funding of project phases have 
resulted in an extended schedule and eliminated additional 
opportunities to reduce costs through sharing resources and 
infrastructure among phases. Congress appropriated resources for the 
project at a level far below the President's budget request in fiscal 
years 2011 and 2012. In the absence of stable funding, the schedule for 
project completion will face delays, and costs increase with delays.
    You can see the effect of funding constraints on the Center 
Building. In fiscal year 2011, GSA's budget request included $381 
million to continue the project, including for the renovation of the 
Center Building. Congress cut GSA's new construction budget request 
that year by 92 percent, and we were only able to allocate $30 million 
to St. Elizabeths. Since that time, the cost of completing the Center 
Building has increased by $17 million.
    When we began the St. Elizabeths project in 2006, the project was 
scheduled for completion in 2016 at a total Government cost of $3.4 
billion. Due to funding cuts, GSA and DHS had to revise the project 
strategy resulting in smaller segments over a longer period that are 
more manageable in this environment. This has pushed the project time 
line for completion out to 2026, and, largely due to inflation over 
that period of time, the total estimated project cost is now $4.5 
billion. Accelerating the remaining project schedule could reduce these 
additional costs.
    GSA appreciates GAO's recommendations that Congress consider 
alternative budget structures that allow for greater consistency in 
funding and project planning. Until GSA has full and consistent access 
to the Federal Buildings Fund, we will continue to see cost increases 
and schedule delays for long-term, multi-phase Government construction 
projects. St. Elizabeths is no exception.
 incorporating gao recommendations into on-going project planning and 
                               execution
    While we are very pleased with our execution of the St. Elizabeths 
project thus far, GSA recognizes and appreciates that there are always 
opportunities to improve project delivery. GAO has recommended that we 
conduct a comprehensive needs assessment and alternatives analysis to 
identify the costs and benefits of construction and leasing project 
delivery methods. We have already begun this assessment, and will 
develop an alternatives analysis that further improves efficiency and 
savings. We are working with DHS to improve processes and reduce costs 
by decreasing the footprint, reexamining certain requirements, and 
integrating the efficient use of leased space based on a review of DHS 
leases throughout the National Capital Region.
    We will update cost and schedule estimates as we continue this 
work, and appreciate the chance to potentially incorporate practices 
recommended by GAO. Not all of GAO's cited procedures and reviews apply 
in the context of real estate construction. Some recommended practices 
are better suited to weapons systems, spacecraft, aircraft carriers, 
and software systems. However, we agree with GAO that quantifying risk 
and uncertainty are important considerations in this funding 
environment, and we will incorporate these considerations moving 
forward. We are working closely with DHS, and together, we are happy to 
update this committee as we finalize this plan.
                               conclusion
    Thank you for the opportunity to speak with you today about our on-
going work to consolidate DHS Headquarters components at St. 
Elizabeths. I welcome the opportunity to discuss GSA's commitment to 
shrinking the Federal Government's real property footprint and 
consolidating out of costly leases. I am happy to answer any questions 
you may have.

    Mr. Duncan. Thank you, Commissioner Dong.
    I will now recognize myself for 5 minutes for questioning.
    I think as a Nation we can be penny-wise and pound-foolish. 
I think this is a project that exemplifies that in a lot of 
ways. I heard the term ``on-time and on-budget'' numerous times 
from two witnesses in regard to the Coast Guard facility. Well, 
on-time and on-budget is really a misstatement because you 
don't have an access road that was originally planned. You had 
reduced transportation infrastructure within the facility. You 
changed the excavation plan there on the hillside, which is 
ultimately going to cost more taxpayer dollars down the road. 
Originally it was planned to excavate the complete hillside for 
future components. You decided only to do part of that. So, 
sure, you can reduce the budget going forward to be on-time and 
on-budget. So I just think that is misleading the American 
taxpayer.
    I think it is very clear that we are not seeing leading 
capital decision-making practices happen. I think Congress has 
a strong responsibility to the taxpayers to make sure that 
their money is spent appropriately at a time when we are almost 
$18 trillion in debt, and you look back at when this project 
was originally put on the drawing board and originally funded 
in the stimulus package we weren't $18 trillion in debt. We 
need to prioritize where we spend our taxpayer dollars.
    Several years ago, then-Secretary Janet Napolitano said 
that she would rather have money to complete building a 
National security cutter for the Coast Guard, support the 
Secret Service in its activities, and sustain our efforts at 
the border than have a new building. Given the threat posed by 
ISIS, the illegal alien crisis in our Southern Border, 
specifically the Rio Grande Valley, but really all across the 
Southern Border, the cyber attacks that we heard over and over 
this week in the committee hearing, both from the FBI and from 
Secretary Johnson, cyber attacks by the Chinese and others, 
other threats, isn't the world more dangerous than when this 
statement was made? I would say that it is based on the 
emerging threats.
    We also heard this week from Secretary Johnson that he has 
the ability, he has a board room, he has a board table, and he 
can bring the leadership team together to communicate and that 
he does regularly. We have a morale issue in the Department of 
Homeland Security, turf wars and components that were 
originally stand-alone components now that are part of the 
broader DHS.
    My dad ran a textile mill his whole career. He would walk 
the plant floor every morning talking with the folks that were 
opening the cotton bales, the card room that were breaking up 
those fibers, and the spinning room, and the weaving room, and 
the napping operation, and the finishing operation, not talking 
to his supervisor, talking to the individuals that were running 
the machinery of the organization to find out what was really 
happening on the ground.
    I think it is important that the supervisors within those 
various components actually spend time within their agencies. 
If we have this facility--and this is just me being rhetorical, 
I guess--but if you moved the leadership team away from the 
normal operations, are you not going to see even less of a 
positive morale in the components?
    So I think Americans would love to see us redirect some of 
these resources to more border security, more fencing, more 
electronic components. I am very concerned that we have an 
aging Coast Guard cutter fleet and we need new ships. I could 
expand that to the Department of Defense and the reduction of 
surface ships, the need to replenish the fuel in a reactor in 
an aircraft carrier.
    I say all that in the context that we are $18 trillion in 
debt and one day the lender is going to come calling. We 
continue to have deficit spending in this country. At what 
point in time do we drop back and punt? At what point in time 
do we make a real resolve to pass an acquisition reform bill 
that puts the right accountability practices in place?
    Secretary Johnson has been someone that is in favor of 
acquisition reform. He wants to do it in-house. I appreciate 
his position, he is the Secretary. But I am also accountable to 
the taxpayers of the United States of America, and I think an 
acquisition reform bill that gives Congress more oversight and 
puts some parameters in place for you guys that are spending 
those tax dollars is very important.
    So taking what I said earlier from Secretary Napolitano, 
GAO reported that DHS officials said it would be illogical to 
develop anything beyond a generalized milestone schedule. 
Generalized milestone schedule, that is what leads to cost 
overruns and delays.
    The Secretary this week said in the committee hearing that 
they look at the number of OTMs that come across the border. 
They don't have a good idea of that total number. They look at 
it in a broad sense. I don't care whether you look at it in a 
broad sense or a narrow sense, Americans realize that we don't 
know who is in our country.
    I think if you look at a generalized milestone schedule 
then Americans realize you don't know how much money you are 
spending and you don't know when this project is going to be 
completed. I think that, I go back to an opening statement, if 
you were going to build a house, you are going to sit down with 
the contractor, you are going to have a good idea of what those 
costs are. There are going to be some unexpected costs, we may 
run into some rock digging the foundation, you may change and 
want different kind of shingles. But you are going to have that 
understanding and you are going to know it is going to take X 
number of months to build that house. You are going to have a 
good understanding.
    I don't believe the American taxpayer has a good 
understanding about the St. Elizabeths project. As much as we 
may want it in the District of Columbia, as much as we may 
think we might need it as a Nation, I think we have an 
obligation to the American taxpayer to tell them how their 
money is going to be spent. I think we also have an obligation 
to the American taxpayer to sometimes drop back and reevaluate. 
I think that is what we are trying to do: Drop back, reevaluate 
priorities, look at where we have spent money wisely and 
unwisely.
    When you look at the hardest wood in America when you could 
have brought a different component for the decking. When you 
have rain-wash flush toilets, that is a political agenda 
driving the spending of taxpayer dollars. We could have saved 
money using normal--normal--plumbing.
    Mr. Cummiskey, is that your position, that we should 
continue to operate under a generalized milestone schedule?
    Mr. Cummiskey. Mr. Chairman, thank you. You make a lot of 
salient points and I think it makes sense.
    I would answer it this way. Your analogy of constructing a 
house I think makes a lot of sense as well. But if I am 
building a house, and I build the frame, and then I wait 4 
years to complete the facility, there is going to be a change 
in the cost and in the time frame associated with that. That is 
what happening with St. Elizabeths. The Congress, through 
appropriate funds as well as ARRA funding, funded the first 
phase. The GSA has built the infrastructure on the campus to 
support Phases II and III. So you are going to have changes in 
that over time.
    To answer your question directly, I think that we have gone 
through the industry-accepted practices, and I think I would 
defer to GSA on this, in terms of planning a facility, and that 
is what you are seeing with the Coast Guard facility. That came 
in, in a position of the planning assessment that is consistent 
with what the industry and the standards accept.
    So I would certainly defer to GSA, but I think that in 
terms of Phases II and III we have changed away from that 
because we have had to move to usable segments. We are not 
looking at Phase II the way it was in the master plan. We are 
saying, okay, the footprint is in place now, we are going to 
change the requirements in terms of square footage from 210 
square feet down to 150, we are making the adjustments over 
time that GAO has required us to do, and I think that that 
planning envelope makes a lot of sense.
    Mr. Duncan. Okay. Let me ask you this. Two-thousand-eight 
saw a financial downturn in this country. This project was 
kicked off with stimulus funds, one-time dollars, with a 
continual funding stream. I keep hearing about the lack of 
funding from Congress. But we were operating from 2009 to today 
with the understanding that we are still in an economic 
downturn, that budgets are crimped all across Government 
spending.
    Do you ever walk out on the Mall behind the Capitol? Have 
you ever spent time walking out on the Mall? Washington is a 
great city, right? I do it. Have you found that tree, that 
money tree, because I hadn't found it yet. It is not out there. 
The money that we are talking about is coming from the American 
taxpayers and they expect us to be a little more frugal and 
wise with the dollars we are spending.
    So operating in that environment, understanding that from 
2008 to today we are still in an economic downturn, the great 
recession that hadn't really improved dramatically, we have got 
to make smart decisions. So Congress didn't fund this. Congress 
doesn't have the money to fund it. The tree isn't out in the 
backyard.
    We are trying to make smart decisions with the money 
allocated to us. I came to Congress to reduce Government 
spending to try to reduce the deficit and live within our means 
because that is what moms and dads and businesses have to do 
all across this great land. Government shouldn't continue to 
operate in deficit spending and run up debt. That is not fair 
to the American taxpayers. It is not fair to my little boys, 
19, 16, and 13, that are going to be future taxpayers of this 
country. Just because we are in the Government doesn't mean we 
continue to spend money like it grows on that tree in the 
backyard.
    I am going to have some additional questions. We are going 
to be here for a little while. We don't have a whole lot of 
Member participation, so I look forward to a second round of 
questioning. But I am over time, so I am going to yield to the 
Ranking Member and then come back. Thanks.
    Mr. Barber. Well, thank you, Mr. Chairman.
    One of the things that the Chairman and I tried to do and 
hopefully will happen with the passage of the Acquisition 
Accountability and Efficiency Act for DHS was to make sure that 
the money that we give on behalf of the people we represent, 
the taxpayers of this country, is spent wisely, with full 
accountability. It also means that in the end the Department 
will spend its money prudently and on the right priorities. Let 
me tell you what one of my biggest priorities is and has yet to 
be resolved.
    Representing, as I do, one of nine border districts, I am 
very concerned that we have yet to deal with the border 
security issue that plagues the people I represent every single 
day. If you know, as you do, Mr. Cummiskey, you know Arizona 
well, east of Douglas all the way to the State line with New 
Mexico is wide-open territory. The drug cartels basically own 
that territory. In the Tucson Sector, which includes my 
district and the adjoining district, we account for 47 
percent--47 percent--of the drugs seized along the Southwest 
Border, and that has been going on for many years. We have to 
stop this flow of drugs carried by people who are prone to 
violence, heavily armed.
    The people I represent want to know from me when I go home, 
what is the Department doing to deploy its resources to address 
that problem? While I know these are different pockets of 
money, it is a really tough question to answer when they say to 
me, how is it possible that the consolidation of a headquarters 
for DHS has cost so much more than was originally intended or 
projected? How is it possible that we are going to be 11 or 12 
years late? Tough question. I don't have a good answer for them 
because from where they see it, it is all one department's 
money. They want answers and they deserve them.
    I also am concerned about how it is we treat in every way 
possible, by pay and in terms of morale, the men and women who 
are on the border, at the border trying to secure the homeland, 
the Border Patrol Agents, those who are manning the ports of 
entry. The ports of entry need more staff. We are opening a new 
port, expanded port in Nogales, Mariposa, don't have enough 
staff for that.
    Last year we avoided--very narrowly avoided--furloughing 
hundreds of Border Patrol Agents. Currently Border Patrol 
Agents are wondering, what is the certainty of their pay going 
forward? These issues create problems for our security and 
create problems for the men and women that we have asked to 
protect the homeland. Yes, we understand because we delve into 
it here that these are separate sections of an appropriation 
process.
    But I have to say, it is really hard for people back home 
to understand how it is possible that the Department spends 
thousands of dollars it shouldn't in Ajo for homes, wastes $24 
million on an IT program that doesn't work, and now is over-
budget in consolidation.
    So I hope that through the study that has been given and 
the recommendations that have been made we can correct, take 
this ship, the course of this ship, and bring it back under 
control.
    I want to ask Mr. Maurer a question or two about the GAO 
study. Given the size and complexity of the Department's 
headquarters consolidation, how long will it take, do you 
believe, for DHS and GSA to implement the best practices, 
including cost and schedule estimates, and an evaluation of 
alternatives contained in the GAO's report? The second part of 
that question is: Once the Department has implemented these 
practices how long would it take, do you believe, for the 
Department--or should it take for the Department--to complete 
the St. Elizabeths consolidation project?
    Mr. Maurer. Thank you for the question. I think that DHS 
and GSA are well-positioned to take action on our 
recommendations and implement them in relatively short order. 
They have established plans, although they are outdated. They 
have an established track record in doing work at St. 
Elizabeths. They have processes in place that should allow them 
to implement our recommendations. We are not asking them to do 
an awful lot more than they have already done, but they do have 
to up their game to better manage the overall project and the 
implementation of the St. Elizabeths effort.
    In terms of how long it would take to complete the project 
after implementing our recommendations, that is really a 
function of how much money Congress provides and when those 
funds are provided. That, in turn, is going to depend, I think 
in large part, on how responsive DHS and GSA are in responding 
to our recommendations, implementing leading practices, and 
updating our plans.
    Mr. Barber. Let me continue, Mr. Maurer, with you on a 
different aspect of this issue. The GAO report discusses the 
Federal Government's evolution regarding workplace standards 
and it states that the Department's, DHS's, demand for office 
space would or could decrease by almost 800,000 square feet, or 
from 4.5 million to 3.7 million if the new standards were 
adopted. Does the GAO report account for DHS' secure space 
requirements?
    Mr. Maurer. Yeah, our assessment was looking at the 
original plan, which called for 4.5 million square feet within 
the St. Elizabeths campus. That includes the amount of spaces 
necessary for secure work stations and work processes. So our 
analysis would also include that as well.
    Mr. Barber. Well, let me ask Mr. Cummiskey next, but before 
I do, I just want to say it is great to have a fellow Arizonian 
in the House. Your reputation in our State was exemplary as a 
State legislator, as the chief information officer for the 
Governor, and your work was recognized by the National 
Governors Association for its creatively and innovation. I am 
really happy to have you here today and in this position at 
DHS. Your abilities and skills are well-proven and I think you 
will apply that talent to this very important undertaking.
    My question, Mr. Cummiskey, or Secretary is, GAO has stated 
that Congress should consider withholding funds for the St. 
Elizabeths project until the Department and GSA develop a 
revised headquarters consolidation plan that conforms with GAO 
leading practices.
    Could you just expand? You said you have agreed with the 
recommendation. Could you expand on what the Department will do 
to implement that recommendation?
    Mr. Cummiskey. Sure. Certainly. Mr. Chairman, Ranking 
Member Barber, thank you for the kind words. It is great to be 
here.
    One of the things we have tried to do, we work closely with 
GAO on a regular basis, and so they have telegraphed and we 
have entered into both interviews with all of the personnel 
associated with the project, as well as with GAO, as they went 
through the process of making the recommendations. So we saw 
this coming for some months, and so we have worked closely with 
GAO to make sure that our planning processes are aligned with 
what we thought the recommendations might be.
    So what you will see in concert with the fiscal year 2016 
submission after the first of the year is an updated or 
enhanced project plan which takes into account what Mr. Maurer 
has been describing, what GSA has been doing internally to up 
its game, as has been indicated, to take account of Freeze the 
Footprint and other changes in the environment that have led us 
to look at this long-term project in a way that is more 
conducive to what the Chairman has indicated, smart, efficient, 
and delivering for the taxpayer. So we anticipate that it won't 
be much of a lift to comply with what Mr. Maurer is indicating.
    Mr. Barber. Thank you for that. Let me ask you a second 
question. If it should turn out that the Department's plan for 
consolidation at St. Elizabeths is abandoned, what is the 
Department's alternative plan, and how much would that cost 
compared with consolidation at St. Elizabeths?
    Mr. Cummiskey. Thank you, Congressman. Essentially what we 
found in the assessment from GSA, as well as our chief 
financial officer, is that in the resourcing decisions that the 
Chairman was alluding to, we would love to be in a position to 
redirect additional funds to National security cutters, ICE 
detention beds, all sorts of other prioritizations for both 
Secretary Johnson and the administration. The difficulty we 
have with the top line is that that is not moving.
    So what happens is that in the analysis that we have done 
we are going to end up spending about the same amount of money 
over the same horizon for lease consolidation, additional 
tenant improvements as we would spend as a Department on St. 
Elizabeths in the relocation and consolidation.
    So I would like to say today that we had money that we 
could redirect to other priorities. Certainly, Secretaries 
Napolitano and Johnson both were under that pressure to 
deliver. But the reality is, even with the consolidation plans 
that we would pivot to, it is unlikely that we would spend any 
less than what we were spending with the proposed plan.
    Mr. Barber. Thank you.
    Mr. Chairman, if I might, just one last question--or two 
actually--for Mr. Dong, Commissioner Dong.
    When will the updated plan for the Department's 
headquarters consolidation be released by GSA and DHS? Second, 
as the DHS consolidation project is delayed, if it was delayed, 
or has it been delayed already, what is the estimated cost to 
GSA of having to renegotiate current leases?
    Mr. Dong. As we work with DHS on the enhanced master plan 
for St. Elizabeths, our expectation is that we will be 
submitting that to the Congress at the same time that we submit 
the fiscal year 2016 budget request.
    In terms of the cost of short-term extensions that would 
result from the project being delayed, we are currently working 
with DHS right now to quantify that impact, and we will be 
happy to share the results with this committee.
    Mr. Barber. I actually do have one other question for you, 
Mr. Dong, and that is, what would GSA's obligations be at St. 
Elizabeths if the project were halted? Would, for example, the 
Coast Guard continue to operate there? Could other Federal 
entities move into that space? What would happen, in other 
words, if we said, no more money, let's stay with the current 
plan of leasing buildings across the capital?
    Mr. Dong. We estimate that the on-going costs associated 
with DHS, if there were no additional consolidation at St. 
Elizabeths, would be about $132 million each year.
    Mr. Barber. Thank you, Mr. Chairman.
    Mr. Duncan. I thank the gentleman.
    The Chairman will now recognize a guest to the committee, 
Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you very much, and I appreciate your 
courtesy, Mr. Chairman.
    Mr. Maurer, I note as you began your report, and I am 
quoting here, you say, ``With a current projected completion 
date of 2026, the St. Elizabeths project is intended to provide 
DHS a secure facility to allow for more efficient incident 
management response and command-and-control operations and also 
provide long-term savings by reducing reliance on leased 
space.''
    As a predicate to this question for you, Mr. Maurer, let me 
ask Mr. Cummiskey or Mr. Dong, during the construction of the 
Coast Guard, the U.S. Coast Guard, were there any change 
requirements that resulted in greater costs over the annual 
inflation adjustments while you were putting that building up, 
or did it go up as expected without any such additional funds 
requested?
    Mr. Dong. Once the project was funded we were able to 
deliver on time and on budget. There were no change requests or 
changes that drove the cost higher.
    Ms. Norton. Yeah, well, that is an indication of a certain 
amount of efficiency on the part of GAO and DHS when it had the 
money. The money was provided, or a great deal of the money was 
provided for the Department, for the U.S. Coast Guard.
    I want to ask Mr. Maurer, whether using the U.S. Coast 
Guard as a marker, that is the building that is up, that was 
delivered on time from the outset of construction once the 
money was available to the agencies. Isn't that some indication 
that had the agencies had the funds for the rest of the 
construction they would have been at least as efficient as they 
were with respect to the Coast Guard building that went up on-
time and on-budget? If you can use any marker, isn't that the 
marker you have to use?
    Mr. Maurer. That is certainly an indication of what they 
have been able to do in the past. Certainly they also had to 
descope some of the work that was originally planned under 
Phase I to match the amount of funds that they received from 
the Congress.
    But going forward, we remain concerned about their current 
position or their current lack of compliance with leading 
practices for cost estimation and schedule estimation. That 
creates additional risk that future build-out at St. Elizabeths 
will be at increased risk of going longer than planned and 
costing more than planned. So that is why we really think it is 
important for them to implement our recommendations on leading 
practices, for GSA and DHS to follow their own policies and 
guidelines, and to update their plans accordingly.
    Ms. Norton. Thank you.
    Now, how many times, Mr. Cummiskey or Mr. Dong or both of 
you, has the agency received its full budget request at the 
beginning of the fiscal year the way you had it for the U.S. 
Coast Guard? How many times have you received your full budget 
request?
    Mr. Dong. There is a significant gap between what GSA had 
requested in the President's budget request versus what was 
actually----
    Ms. Norton. I didn't ask you that. I didn't ask you about 
the gap. I asked you how many times have either of you received 
your budget request at the beginning of the fiscal year?
    Mr. Dong. I don't think ever.
    Ms. Norton. How has that affected capital planning for that 
project?
    Mr. Dong. Without having funding certainty, it is very 
difficult to scope out the entire project and to get into the 
details that would allow you to have a specific schedule. Once 
we do get funding we are able to do a very detailed project 
schedule, just as GAO has pointed out.
    Ms. Norton. So you have had to engage in short-term leases. 
Would you explain what the disadvantage of short-term leases 
are when you have to have short-term leases? How many short-
term leases do you have? How many leases do you expect to come 
up and have to be renewed across the region?
    Mr. Dong. We have far too many short-term extensions on the 
leases for DHS components because of the delay in this project, 
because funding has not materialized. What we see is----
    Ms. Norton. How many leases are going to become due, let us 
say, next year that you will have to then either renew or do 
short-term leases?
    Mr. Dong. We can provide you with the specifics there.
    Ms. Norton. I think that is very important to do. Since, of 
course, you have this delay, when a lease becomes due, do you 
have to do a long-term lease? Do you do a short-term lease? How 
much more expensive is a short-term lease than a long-term 
lease?
    Mr. Dong. If we know that the agency is not going to be in 
that space for an extended period of time because of a plan to 
move elsewhere, we will do a short-term extension. But what we 
have seen and what we discussed with the T&I Committee several 
months ago, when we focused on leasing, is that any time you 
are in holdover or extension, you are paying, on average, about 
20 percent more than you should.
    Ms. Norton. Could you clarify this? Is it not the case that 
the basic infrastructure for the entire consolidation is in 
place and in the ground? What would happen to it if we simply 
abandoned the project?
    Mr. Dong. We have a lot of the infrastructure in place. As 
I mentioned before, the carrying cost of that is about $132 
million each year. The fiscal year 2015 budget request actually 
goes further in terms of completing the infrastructure work in 
terms of the Malcolm X Boulevard and the 295 access road. So 
those are important investments that we need to make to ensure 
the full viability of the St. Elizabeths program.
    Ms. Norton. I realize I am over time. If I could note for 
the record, Mr. Chairman, that the original cost was to be $4.5 
billion, but the leases, so far as we can tell, for the space 
now will cost $5.2 billion over 30 years. So finishing the 
project would virtually pay for itself, rather than allowing 
these expensive leases to go forward.
    Thank you very much, Mr. Chairman.
    Mr. Duncan. Thank the gentlelady.
    We have got time for a few more questions for another 
round. I was on a rant earlier because, I am not mad about this 
project, I am not upset, I am sad when I see taxpayer dollars 
spent in a way that I may not agree with.
    So, anyway, let me just ask a couple of questions. The GAO 
reports shows the DHS failed to conduct proper oversight over 
St. Elizabeths project. That is the fact. Specifically, DHS 
never consistently identified St. Es as a major acquisition 
program, even though DHS alone plans to spend almost $2 billion 
in taxpayer funds on the headquarters. So $2 billion dollars, 
but it is not a major acquisition program.
    Mr. Cummiskey, can you explain your rationale to Members of 
this committee why DHS failed to take the simple step of 
identifying St. Es as a major acquisition program?
    Mr. Cummiskey. Certainly, Mr. Chairman. Thank you.
    The reason that that was the case, as I indicated in the 
opening statement, that the bulk of the funding goes to GSA. 
Using 2014 and 2015 as examples, our request in fiscal year 
2014 is $35 million. So comparatively it is a smaller amount 
than what we would normally see in acquisition oversight. That 
is not to say that we haven't been overseeing our portion of 
it. But in the same fiscal year, in 2014, the $155 million that 
went to GSA for the construction of the next piece of this 
isn't in our purview. So we are overseeing the portion that we 
have and making sure that there is accountability.
    As I indicated, I have issued an acquisition decision 
memorandum this week that, based on the GAO recommendation, 
going forward we will subject it to the same rigor as the 
Acquisition Review Board process does for any major 
acquisition, even though the dollar figures tend to be smaller 
comparatively to what we usually would consider.
    Mr. Duncan. Okay. Thank you.
    We toured the facility last year, Members of the committee 
did. I looked at it from the eyes of a developer, as I have 
renovated and developed property in my private-sector life. So, 
Mr. Dong, I understand some of the challenges of taking an 
existing building and developing it for a 21st Century business 
practice or use. Could you explain the enormity of the 
challenge with this historic preservation and why did DHS and 
GSA proceed knowing the huge challenge that lay ahead of them 
instead of picking a more manageable site?
    Mr. Dong. When we were considering the question of site 
selection we considered a number of factors that focused on the 
ability to support DHS, its mission, and its operational 
requirements. We looked at having a site that was large enough 
to support the magnitude of employees that would be 
consolidated from across the National Capital Region into that 
site. We looked at a site that would be able to accommodate 
level 5 security. We also wanted a site that had proximity to 
the White House and to the Congress. We also wanted a site that 
had access to transportation and major roadways.
    Mr. Duncan. Proximity to the White House, is that what I 
heard you say?
    Mr. Dong. Being able to be close to Washington, to the 
center Washington.
    Mr. Duncan. Wow. If you needed to get to the White House 
rapidly, even driving with security and lights flashing and all 
that from that site to the White House it is going to take you 
a while. Probably going to get in a helicopter a lot quicker to 
get to the White House.
    So having that dynamic in play, site selection, looking at 
a vacant tract of land in Virginia and starting from scratch 
probably would have made just as much sense, because you are 
still going to have to get in a helicopter and fly to the White 
House for a rapid face-to-face.
    Wow. Okay. So I am thinking about the next question. I am 
going to just stop right there.
    Mr. Barber, do you have any further questions?
    Mr. Barber. No.
    Mr. Duncan. I would like to ask unanimous consent to submit 
to the record the Majority staff committee report from January 
2014 on the rising cost and delays in construction of new DHS 
Headquarters at St. Elizabeths.
    No objection, so ordered.*
---------------------------------------------------------------------------
    * The information has been retained in committee files and is 
available at http://homeland.house.gov/press-release/duncan-releases-
majority-staff-report-efficiency-construction-dhs-s-new-headquarters.
---------------------------------------------------------------------------
    I want to thank the panelists for being here. I want to 
thank the committee. This is an issue that is going to be here. 
We have put some slides up, I think, of what the site looked 
like. I think we have delved into the GAO report. I am going to 
ask the committee to read the report. I want to commend the GAO 
for its efforts in putting that together. I thank the staff for 
delving through this and really staying on top of this.
    I want to urge the Department, Mr. Cummiskey, to continue 
with acquisition reform management. Hopefully, we can get the 
Senate to pass a bill that will give us some more tools, tools 
for you and tools for us. We want to work in concert with you 
to make sure we are effective on spending taxpayer dollars, 
make sure that we have the appropriate oversight, and to make 
sure that we are accountable.
    Mr. Schneider had a letter, former Bush administrator or 
appointee. But, you know what, he is not accountable to the 
taxpayers. It is easy to sit on the sideline and say, you can 
do this or you could do that better or this is why this 
necessary. But when you were accountable to the taxpayer and 
the voters, then it is a little different on this side of the 
fence. I think we are doing the appropriate oversight and I 
think that is what this committee was designed to do. I want to 
thank the committee for their efforts.
    I really do hate that we ended our work in the House 
yesterday and that many Members left, because I think we had a 
lot of Members that were interested in this hearing, but they 
also have some things to do back home. Mr. Hudson from North 
Carolina would have been here this morning, but he is at the 
doctor not feeling well. So we wish him a speedy recovery.
    Thank you, gentlemen. Committee Members may have some 
additional questions for you, and those will be submitted. We 
ask that you will provide the answers to us and respond to 
those in writing.
    So without objection, the subcommittee will stand 
adjourned.
    [Whereupon, at 10:43 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

        Questions From Chairman Jeff Duncan for David C. Maurer
    Question 1a. The GAO report notes that the St. Elizabeths cost 
estimate was overly optimistic and the schedule is unreliable.
    Do you think it's appropriate for Congress to appropriate funds for 
St. Elizabeths without credible and reliable information on how many 
taxpayer dollars will be ultimately spent on the project?
    Answer. High-quality, reliable cost and schedule estimates are 
critical to the success of a major program such as the consolidation 
project at St. Elizabeths. Such estimates provide the basis for 
informed investment decision making, realistic budget formulation and 
program resourcing, meaningful progress measurement, proactive course 
correction when warranted, accountability for results, and for the 
expenditure of taxpayer dollars. We recommended in September 2014 that 
Congress consider making future funding for the St. Elizabeths project 
contingent upon the Department of Homeland Security (DHS) and General 
Services Administration (GSA) developing a revised headquarters 
consolidation plan that includes the development and submission of 
reliable cost and schedule estimates, among other things.\1\ We found 
that DHS and GSA cost and schedule estimates for the headquarters 
consolidation project at St. Elizabeths do not or only minimally or 
partially conform with leading estimating practices, and are therefore 
unreliable.\2\ For example, we found that the 2013 cost estimate--the 
most recent available--was not regularly updated to reflect significant 
changes to the program including actual costs and did not include an 
independent estimate. In addition, we found that the 2008 and 2013 
schedule estimates did not include all activities for both the 
Government and its contractors necessary to accomplish the project's 
objectives.\3\
---------------------------------------------------------------------------
    \1\ GAO, Federal Real Property: DHS and GSA Need to Strengthen the 
Management of DHS Headquarters Consolidation, GAO-14-648 (Washington, 
DC: Sept. 19, 2014).
    \2\ See leading practices at: GAO, GAO Cost Estimating and 
Assessment Guide: Best Practices for Developing and Managing Capital 
Program Costs, GAO-09-3SP (Washington, DC: Mar. 2, 2009) and GAO 
Schedule Assessment Guide: Best Practices for Project Schedules, GAO-
12-120G (Washington, DC: May 2012). The methodology outlined in these 
guides is a compilation of best practices that Federal estimating 
organizations and industry use to develop and maintain reliable cost 
and schedule estimates throughout the life of a Government acquisition 
program. The leading practices were developed in conjunction with 
Government and industry experts in the estimating community. By 
default, these guides also serve as guiding principles for our auditors 
to evaluate the economy, efficiency, and effectiveness of Government 
programs.
    \3\ GAO-14-648.
---------------------------------------------------------------------------
    Question 1b. Did DHS and GSA simply lack the expertise to 
accurately assess the costs and schedule or was the plan to downplay 
the cost and schedule risks of St. Elizabeths to ensure the project 
moved forward?
    Answer. We believe that DHS and GSA officials have the capability 
to implement our September 2014 recommendation to develop more reliable 
cost and schedule estimates for the remaining portions of the St. 
Elizabeths project that conform to GSA guidance and leading 
practices.\4\ DHS and GSA concurred with this recommendation, which 
also stated that the estimates should be revised before moving forward 
with additional funding requests for the DHS Headquarters consolidation 
project. Until DHS and GSA develop reliable cost and schedule 
estimates, the project is at greater risk of potential cost overruns, 
missed deadlines, and performance shortfalls.
---------------------------------------------------------------------------
    \4\ GAO-14-648.
---------------------------------------------------------------------------
    Question 2a. DHS clearly disagreed with GAO's criteria for leading 
practices in capital planning and cost and schedule estimating used to 
evaluate the management of St. Elizabeths.
    Please explain why these leading practices are applicable to DHS 
and GSA.
    Answer. The $4.5 billion construction project at St. Elizabeths, in 
conjunction with the larger effort to consolidate DHS Headquarters 
personnel in the Washington, DC area, is a major capital project that 
requires sound capital planning and reliable cost and schedule 
estimating by DHS and GSA. Congress, the Office of Management and 
Budget (OMB), and GAO have all identified the need for effective 
capital decision making among Federal agencies. GAO developed its 
Executive Guide: Leading Practices in Capital Decision-Making to 
provide detailed guidance to Federal agencies on leading practices for 
the four phases of capital programming--planning, budgeting, acquiring, 
and managing capital assets--assets such as the development of the St. 
Elizabeths campus. These practices are, in part, intended to provide a 
disciplined approach or process to help Federal agencies effectively 
plan and procure assets to achieve the maximum return on investment.\5\
---------------------------------------------------------------------------
    \5\ GAO, Executive Guide: Leading Practices in Capital Decision-
Making, GAO/AIMD-99-32 (Washington, DC: December 1998). To produce this 
guide, we conducted extensive research to identify leading practices in 
capital decision making used by State and local governments and 
private-sector organizations. Specifically, based on interviews and 
documentation obtained from site visits to leading organizations, we 
identified innovative practices used by individual organizations as 
well as approaches and elements that were common across organizations. 
The leading organizations in our study reviewed a draft of this guide 
and verified that the case study examples are an accurate 
representation of their practices.
---------------------------------------------------------------------------
    In addition, we have applied our leading cost and schedule 
estimation practices in past work involving Federal construction 
projects similar to the St. Elizabeths project at other Federal 
agencies.\6\ The leading practices were developed in conjunction with 
numerous stakeholders from Government and the private sector, including 
DHS and GSA. Furthermore, GSA acknowledged the value of our leading 
cost estimation practices in 2007 and issued an order to apply the 
principles to all cost estimates prepared in every GSA project, 
process, or organization.\7\ DHS has also applied the leading practices 
as guidelines for assessing its own programs.\8\ We concluded that 
developing cost and schedule estimates consistent with leading 
practices could promote greater transparency and provide decision 
makers needed information about the St. Elizabeths project and the 
larger DHS Headquarters consolidation effort.\9\
---------------------------------------------------------------------------
    \6\ See for example GAO, Architect of the Capitol: Incorporating 
All Leading Practices Could Improve Accuracy and Credibility of 
Projects' Cost Estimates, GAO-14-333 (Washington, DC: Mar. 25, 2014); 
VA Construction: VA Is Working to Improve Initial Project Cost 
Estimates, but Should Analyze Cost and Schedule Risks, GAO-10-189 
(Washington, DC: Dec. 14, 2009); and Modernizing the Nuclear Security 
Enterprise: New Plutonium Research Facility at Los Alamos May Not Meet 
All Mission Needs, GAO-12-337 (Washington, DC: Mar. 26, 2012).
    \7\ See GSA Order 4210.1: CFO P Cost Estimation Policy Handbook, 
June 27, 2007. The GSA Chief Financial Officer initiated this cost 
estimation policy in response to a GAO recommendation contained in GAO, 
Telecommunications: GSA Has Accumulated Adequate Funding for Transition 
to New Contracts, but Needs Cost Estimation Policy, GAO-07-268 
(Washington, DC: Feb. 23, 2007). Specifically, GSA concurred with a 
recommendation to establish a policy for cost estimation efforts that 
reflects leading practices by requiring that estimates be: 
Comprehensive, well-documented, accurate, and validated.
    \8\ See for example GAO, Checked Baggage Screening: TSA Has 
Deployed Optimal Systems at the Majority of TSA-Regulated Airports, but 
Could Strengthen Cost Estimates, GAO-12-266 (Washington, DC: April 27, 
2012).
    \9\ GAO-14-648.
---------------------------------------------------------------------------
    Question 2b. Why does DHS and GSA think that Government-wide 
leading practices should not apply to St. Elizabeths?
    Answer. DHS and GSA agreed with our September 2014 recommendations 
on the importance of conforming with Government-wide leading practices 
throughout future phases of the St. Elizabeths project.\10\ However, in 
its formal comments on the report DHS expressed concern that the report 
was overly focused on ``leading practices'' as opposed to being more 
outcome- and results-oriented. We believe that applying the Government-
wide leading practices on capital decision making and cost/schedule 
estimation cited in our report would better position DHS and GSA to 
manage the St. Elizabeths project and help ensure better outcomes and 
results. DHS also stated that GSA, in concert with DHS, has already 
conducted sufficient analysis to support the leading practices in our 
report. We disagree, and as we noted in the report, cost, and schedule 
estimates for the project were deficient in several areas, including 
comprehensiveness, accuracy, and credibility.
---------------------------------------------------------------------------
    \10\ GAO-14-648.
---------------------------------------------------------------------------
    In its formal comments on the draft report, GSA stated that several 
of the leading practices we identified are better-suited to non-real 
estate investments such as weapons systems, spacecraft, aircraft 
carriers, and software systems. We disagree with this as well. As 
stated in our report and noted above, we have applied our leading cost 
and schedule estimation practices in past work involving Federal 
construction projects, and the leading practices were developed in 
conjunction with numerous stakeholders from Government and the private 
sector including DHS and GSA.\11\ In addition, OMB's Capital 
Programming Guide, a supplement to OMB Circular A-11, states that 
Federal agencies must develop sound cost estimates based on the GAO 
Cost-Estimating Guide.\12\
---------------------------------------------------------------------------
    \11\ GAO-14-648.
    \12\ OMB, Capital Programming Guide, Supplement to OMB Circular A-
11, (Washington, DC: July 2014) and GAO-09-3SP.
---------------------------------------------------------------------------
         Question From Chairman Jeff Duncan for Chris Cummiskey
    Question. The GAO report says that ``DHS and GSA have not conducted 
a comprehensive assessment of current needs, identified capability 
gaps, or evaluated and prioritized alternatives.''
    With the time frame for completion of 2026 and price tag of $4.5 
billion at a minimum, it seems based on GAO's work that St. Elizabeths, 
as originally envisioned, is unachievable. What is DHS's back-up plan? 
What are DHS and GSA considering to get this project back on track and 
save taxpayer dollars?
    Answer. With the updated Consolidation Plan currently under review 
by the administration, DHS and GSA are identifying opportunities to 
reduce both scope and projected cost in recognition of the changing 
workplace design standards, the constrained Federal budget environment, 
and the administration's commitment to reduce the Federal real property 
portfolio through the ``Freeze the Footprint'' initiative.
    All of the work funded by the Congress and completed to date has 
been delivered on-time and on-budget. There have been no cost over-runs 
for funded construction. The General Services Administration (GSA) was 
required to de-scope certain portions of funded construction contracts 
to create sufficient capital to complete critical infrastructure that 
was not funded in 2011 and 2012 to support Phase I occupancy. These 
actions were fully coordinated and the operational impacts were 
mitigated through a cooperative effort among GSA and the DHS/United 
States Coast Guard (USCG) team.
    From the Master Plan development up though the completion of Phase 
I, the Department prohibited requirements changes to allow GSA to 
effectively manage cost, schedule, and performance.
    In their recent testimony before the Committee on Homeland 
Security, the Government Accountability Office (GAO) acknowledged that 
while the program did not adhere to their ``Leading Practices,'' 
published in 1998, the Phase I performance was ``effective.''
    Another step taken to further maximize consolidation is the GSA and 
DHS collaboration to update the Headquarters Consolidation Plan to 
address the on-going changes in workplace design and flexible workplace 
strategies. The DHS Office of the Chief Readiness Support Officer, 
which manages DHS real property requirements, adopted these strategies 
and executed a pilot to reduce their office space by 50%, saving over 
$1 million annually in rent. The lessons learned from this pilot are 
being implemented as we consolidate space across the country. We 
anticipate that our final Headquarters Consolidation Plan will 
significantly reduce space requirements and accommodate more employees 
than the original plan through the use of flexible workplace 
strategies. The plan is currently under administration review and will 
be shared with Congress no later than the submission of the President's 
fiscal year 2016 budget.
  Questions From Ranking Member Bennie G. Thompson for Chris Cummiskey
    Question 1. How many locations does the Department occupy in the 
National Capital Region, and how much of this office space is 
Federally-owned as opposed to being commercially leased?
    Answer. The Department occupies 50 HQ locations in the National 
Capital Region, including 6 Federally-owned and 44 leased locations as 
of November 1, 2014.
    Question 2. What will GSA and DHS do with the Federally-owned space 
at the current facility on Nebraska Avenue if the Department vacates 
it?
    Answer. GSA and DHS are planning to continue utilizing this 
property as part of the Headquarters Consolidation effort. Significant 
investments have been funded by Congress to improve the infrastructure 
of the NAC. In addition, several buildings have been renovated, 
including special space construction for the Office of Intelligence and 
Analysis (I&A).
    Accordingly, our plan seeks to continue to leverage the benefits of 
occupying Federal space for long-term mission specific needs at lower 
total ownership costs over leasing.
          Questions From Chairman Jeff Duncan for Norman Dong
    Question 1. The GAO report says that ``DHS and GSA have not 
conducted a comprehensive assessment of current needs, identified 
capability gaps, or evaluated and prioritized alternatives.''
    With the time frame for completion of 2026 and price tag of $4.5 
billion at a minimum, it seems based on GAO's work that St. Elizabeths, 
as originally envisioned, is unachievable. What is DHS's back-up plan? 
What are DHS and GSA considering to get this project back on track and 
save taxpayer dollars?
    Answer. Response was not received at the time of publication.
    Question 2. The Food and Drug Administration (FDA) and the General 
Services Administration (GSA) are working together to consolidate the 
FDA at the Government-owned White Oak site in Montgomery County, 
Maryland. Are there lessons learned from GSA's White Oak experience 
that can be applied to the St. Elizabeths campus?
    Answer. Response was not received at the time of publication.
    Question 3. To what extent has GSA thoughtfully considered 
exploring public-private partnerships to help complete/fund the St. 
Elizabeths campus?
    Answer. Response was not received at the time of publication.
    Question 4a. GSA has authorities under Section 585 for lease-to-own 
agreements and under Section 412 for grand lease/lease back agreements. 
The authorities are hardly ever used especially in recent years.
    To what extent has GSA considered using Section 585 and 412 
authorities at St. Elizabeths? Are there disincentives for using these 
authorities?
    Answer. Response was not received at the time of publication.
    Question 4b. Do you support changing the budget scoring rules to 
allow for long-term investments in Federal real estate?
    Answer. Response was not received at the time of publication.
    Question From Ranking Member Bennie G. Thompson for Norman Dong
    Question. GSA uses the Automated Prospectus System, or TAPS 
analysis to make decisions regarding leasing and options for new 
construction. However, both DHS and GSA have acknowledged that TAPS is 
not best-suited for the headquarters consolidation.
    What other types of analysis have been conducted to make a business 
case for the new consolidation plan that DHS and GSA are developing, 
and what did the analysis indicate?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
